<html>
<title> - CONTINUATION OF 9/11 HEALTH EFFECTS: ENVIRONMENTAL IMPACTS FOR RESIDENTS AND RESPONDERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
    CONTINUATION OF 9/11 HEALTH EFFECTS: ENVIRONMENTAL IMPACTS FOR 
                        RESIDENTS AND RESPONDERS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2007

                               __________

                           Serial No. 110-45

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
40-872                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2007...................................     1
Statement of:
    Chan, Kwai-Cheong, former Assistant Inspector General for 
      Program Evaluation, Environmental Protection Agency; David 
      M. Newman, industrial hygienist, New York Committee for 
      Occupational Safety and Health; Patrick Roohan, director, 
      Bureau of Program Quality, Information and Evaluation, New 
      York State Department of Health; Dr. Anthony Szema, 
      assistant professor of medicine, Suny-Stony Brook School of 
      Medicine; Suzanne Y. Mattei, executive director, Sierra 
      Club of New York City; and Peter Gudaitis, executive 
      director, New York Disaster Interfaith Services............    31
        Chan, Kwai-Cheong........................................    31
        Gudaitis, Peter..........................................    37
        Mattei, Suzanne Y........................................    85
        Newman, David M..........................................    49
        Roohan, Patrick..........................................    61
        Szema, Dr. Anthony.......................................    79
    Graham, Yvonne, deputy Brooklyn Borough president............    20
Letters, statements, etc., submitted for the record by:
    Chan, Kwai-Cheong, former Assistant Inspector General for 
      Program Evaluation, Environmental Protection Agency, 
      prepared statement of......................................    33
    Fossella, Hon. Vito, a Representative in Congress from the 
      State of New York, prepared statement of...................   110
    Graham, Yvonne, deputy Brooklyn Borough president, prepared 
      statement of...............................................    23
    Gudaitis, Peter, executive director, New York Disaster 
      Interfaith Services, prepared statement of.................    40
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     8
    Mattei, Suzanne Y., executive director, Sierra Club of New 
      York City, prepared statement of...........................    88
    Nadler, Hon. Jerrold, a Representative in Congress from the 
      State of New York, prepared statement of...................    15
    Newman, David M., industrial hygienist, New York Committee 
      for Occupational Safety and Health, prepared statement of..    52
    Roohan, Patrick, director, Bureau of Program Quality, 
      Information and Evaluation, New York State Department of 
      Health, prepared statement of..............................    63
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............   107
    Szema, Dr. Anthony, assistant professor of medicine, Suny-
      Stony Brook School of Medicine, prepared statement of......    82


    CONTINUATION OF 9/11 HEALTH EFFECTS: ENVIRONMENTAL IMPACTS FOR 
                        RESIDENTS AND RESPONDERS

                              ----------                              


                         MONDAY, APRIL 23, 2007

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                      Brooklyn, NY.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
Brooklyn Borough Hall, 209 Joralemon Street, Brooklyn, NY, Hon. 
Edolphus Towns (chairman of the subcommittee) presiding.
    Present: Representatives Towns, Murphy, Maloney, and 
Platts.
    Also present: Representatives Weiner and Nadler.
    Staff present: Michael McCarthy, staff director; Rick 
Blake, professional staff member; Cecelia Morton, clerk; and 
John Cuaderes, minority senior investigator and policy advisor.
    Mr. Towns. The subcommittee will come to order. Before 
starting our proceedings today, I just want to say two words 
about one of our colleagues who passed away. Juanita Millender-
McDonald passed away yesterday, who happened to be my next door 
neighbor in the Rayburn Building in Washington, DC.
    Her office is right next to my office. We served together 
for many years. And she, of course, chaired the House 
Administration Committee and has done a fantastic job in that 
regard.
    So we will miss Congresswoman McDonald. And I would just 
like for you to just pause for a moment of silence.
    [Pause.]
    Mr. Towns. Thank you.
    We are in the borough presidents--of course, Marty 
Markowitz has made it possible for us to come in. And I was 
sort of looking for him to ask him to bring greetings today, 
but I do not see the borough president. Oh, he is on his way 
upstairs? OK.
    Well, we will just pause a moment to ask him to bring 
greetings, of course. And if he can't bring greetings, we will 
have to ask the deputy borough president to bring greetings 
because we want to thank you for allowing us to come in and 
hold the congressional hearing.
    While we are waiting on him, let me just sort of introduce 
the members on the panel here in terms of our Congressmembers. 
First, we have the ranking--actually, the former chairman of 
this subcommittee before, as you know, the House did a little 
switch. And he was the Chair. Of course, I was ranking at the 
time he was chair. And he did a marvelous job. I enjoyed 
working with him. And, of course, he hails from Pennsylvania, 
Representative Platts from Pennsylvania, whom you will be 
hearing from a little bit later on in his statement.
    Then, of course, we have with us Congressman Nadler, who 
also represents a portion of Brooklyn. So he is at home here, 
of course. And then, of course, you have Carolyn Maloney from 
Manhattan, who has been very involved in this issue as well.
    So we will pause at this point to ask the borough president 
of Brooklyn, the Honorable Marty Markowitz, to bring greetings 
to us and to thank him for allowing us to come in to Borough 
Hall, a place that I am very, very familiar with.
    Borough President Marty Markowitz.
    Mr. Markowitz. You sure are. And, remember, mi casa es su 
casa.
    Thank you very, very much. It is so good to see you. Jerry 
Nadler, who serves Brooklyn with tremendous distinction; 
Congressmember Platts, welcome to where New York State begins, 
Brooklyn; Carolyn Maloney, who is an outstanding Member of the 
Congress from our outer borough, Manhattan--and thank you all 
for your personnel; I mean it, Carolyn--and Chairman Ed Towns. 
It is a pleasure to call you Chair. And you should always be 
chair for all the days to come. And I mean that.
    Mr. Towns. Thank you.
    Mr. Markowitz. Let me say good morning to the Subcommittee 
on Government Management, Organization, and Procurement, 
Committee on Oversight and Government Reform. Welcome to what 
we call Brooklyn City Hall.
    I want to thank everyone here for making yourselves 
available to talk about the health concerns of Brooklynites, 
especially as they relate to the devastating attacks on 9/11. 
The single most important thing to any human being, as we all 
know, is his or her health.
    I'm sorry. Congressman Weiner, welcome. Welcome. 
Congressman Weiner serves Brooklyn and Queens superbly. And the 
only word I have to say about him, he's too thin. That's the 
only thing. I have tried since I've known him to fatten him up. 
Obviously I get fatter as I talk about it. Congressman Weiner, 
thank you very much.
    Mr. Weiner. Keep those Junior's cheesecakes coming.
    Mr. Markowitz. Right past me to you. I know. And so it goes 
without saying that as elected officials, our No. 1 priority is 
doing everything in our power to ensure that our residents get 
the treatment and care they need and deserve.
    That is why I along with all of our residents am profoundly 
grateful to our colleagues at the Federal level who have 
introduced in both the House and the Senate the 9/11 Heroes 
Health Improvement Act of 2007. This bill would provide $1.9 
billion in Federal funding for medical and mental health 
screening, testing, and treatment grants to health care 
institutions that care for those affected by the 9/11 attacks.
    We applaud Congressmen Towns, Nadler, Engel, Weiner, 
Platts, and Maloney for taking action. We urge Congress to pass 
this legislation quickly.
    The heartbreak that Brooklynites experienced on 9/11, the 
days and months afterwards, and even to this day, as you know, 
is as searing and complete as that of any New Yorker or any 
American. Three Brooklyn police officers perished in the rescue 
efforts, and 82 of New York's bravest from Brooklyn firehouses 
died on the scene.
    According to the World Trade Center health registry, at 
least 8,000 Brooklynites were in the downtown area during the 
towers' collapse. Countless numbers of our residents breathe in 
contaminated air from the smoke plume that drifted to Brooklyn 
on that terrible day.
    Finding out how our residents' health may have been 
impacted and getting them the treatment that is denied them is 
the right thing to do, as you know.
    I thank you for holding this important hearing in Brooklyn. 
Many Brooklynites are still waiting to be compensated and cared 
for. No one knows better than all of us here in Brooklyn how 
tough Brooklynites are and the tremendous attitude they bring 
to every challenge. But the heartbreak of 9/11 will always 
front our collective memories.
    The least we can do is to get our residents the treatment 
and care they need so that the health conditions that resulted 
from the 9/11 tragedy are a thing of the past.
    Thank you and good morning. And I know that our deputy 
borough president, Yvonne Graham, will get into much greater 
depth on this. Thank you very, very much for being here.
    Mr. Towns. Thank you very much, Mr. President.
    Mr. Markowitz. My pleasure.
    Mr. Towns. Thank you very much for allowing us to come in. 
And thank you for your welcome.
    Mr. Markowitz. Welcome home, by the way.
    Mr. Towns. Thank you. Thank you. And I also thank you for 
calling me chairman.
    Mr. Markowitz. I love that title.
    Mr. Towns. Let me ask unanimous consent that these members 
of the New York City delegation be allowed to participate in 
today's hearings. That's Congressman Weiner and, of course, 
Congressman Nadler and Congresswoman Maloney. Without hearing 
any objection, it is so ordered.
    I would also like to welcome those seated in the audience 
who are either first responders or who belong to a trade union 
and other organizations who represent these heroes. You are the 
primary reason we are holding this hearing today.
    I recognize that on the day of 9/11, that there was a dark 
cloud in the sky moving in this direction, moving toward 
Brooklyn. And there is no doubt in my mind that Brooklyn was 
affected by that because it landed somewhere in our borough. 
And, of course, since that time, we have had many residents to 
come forward and say that they had respiratory problems and all 
kinds of things occurred.
    I think that we cannot afford the luxury of just ignoring 
this, that we must listen to it. And, of course, I said that 
this committee will address that issue and see what we can do 
in terms of to be able to correct it.
    We feel that not only is the city involved in it, but I 
think that the Federal Government has an obligation and 
responsibility as well to come up with a Federal fix because we 
do not want to discourage people from volunteering. We do not 
want to discourage people from helping each other. And the only 
way we can do that is to make certain we are fair to them when 
something like this happens.
    So I want to thank my colleagues today for coming to be a 
part of this hearing and to say I look forward to hearing from 
the witnesses.
    So at this point in time I would like to pause and ask 
Representative Platts for his opening statement. And then we'll 
just move right along to the other Members.
    Mr. Platts. Thank you, Mr. Chairman. It is great to be back 
here in Brooklyn, I think my third visit here with you. And 
while I enjoyed the title of chairman in the past, I am 
delighted to now have the privilege of serving with you as 
chair of this important subcommittee.
    I also want to add my words of condolences to our 
Congresswoman's family in her passing and that we keep her and 
her family in our thoughts and prayers in this difficult time.
    I want to comment my fellow colleagues that are here and 
especially the New York delegation in total for your great 
leadership on this very important issue and your continuing the 
important oversight through this committee's work.
    I believe this is the committee's sixth hearing on the 
health problems caused by al-Qaeda's attack on New York City 
5\1/2\ years ago. Members share a commitment to ensuring that 
the Federal Government, the State of New York, this wonderful 
city, and other public and private organizations are properly 
organized and funded to identify, assess, and treat those 
emergency personnel, workers, volunteers, and residents who are 
physically or emotionally harmed by the collapse of the World 
Trade Center and the subsequent cleanup.
    The 2001 terrorist attacks caused destruction on an 
unprecedented scale. When al-Qaeda struck the World Trade 
Center buildings with fuel-laden jet aircraft amidst one of the 
world's most densely populated cities, the resulting collapse 
of the World Trade Center Twin Towers and other buildings was 
unimaginable.
    Thousands of firefighters, police officers, and others 
raced immediately to provide assistance at the scene. Thousands 
more arrived in subsequent days and weeks to fight persistent 
fires and to remove rubble and begin the arduous task of 
rebuilding.
    Now it seems apparent that these brave individuals inhaled 
a toxic mixture of concrete dust and smoke made up with the 
byproducts of incinerated building materials. Every American 
harmed physically and mentally by the 9/11 attacks in New York; 
Washington, DC; and those with loved ones on flight 93 deserve 
our assistance.
    Today, we will hear from several people who are 
representatives of a much larger number of victims of that day. 
I look forward also to hearing from city officials and learning 
about the government's current arrangements and future plans to 
assist those in need.
    The President has included $25 million in his current 
budget for the coming fiscal year as what has been called a 
placeholder in the Nation's spending plan. I'm eager to hear 
assessment about how this seemingly modest amount will be 
allocated and estimates on the scope of further assistance that 
will be needed in the months and years to come.
    It's also essential to learn from the 2001 attacks so that 
our government is prepared for natural and manmade emergencies 
in the future. I look forward to hearing what lasting changes 
and arrangements have been made in light of the experiences 
here in New York.
    Finally, no doubt there will be some disagreements about 
whether in hindsight every agency of government responded 
adequately to the health issues caused by the unprecedented 
attack on September 11th. Let us not, however, lose sight of 
the forces and individuals which struck the blow which spurred 
this and the preceding hearings.
    We must correct dysfunctional or unresponsive 
bureaucracies. We must allocate the necessary funds to aid 
those harmed. And, most importantly, we must work together as a 
nation to ensure that we are prepared to handle any emergencies 
that we are likely to face as we continue to fight the war on 
terror.
    Thank you again, Mr. Chairman, for allowing me to be here 
with you today and for your important and great leadership on 
this issue.
    Mr. Towns. Thank you very much. I really appreciate your 
being here and also the work that you have been doing, not only 
now but even in the past.
    The next person we call on, a very outstanding member of 
the committee from Manhattan, Representative Carolyn Maloney.
    Ms. Maloney. Thank you so much, Mr. Chairman. I also 
represent Queens. And I really want to thank you for holding 
this very important hearing on 9/11 health effects.
    This is the second hearing that Chairman Towns has called 
on the health problems that our citizens confront. It is the 
sixth in a series of hearings that have been held by this 
committee in Congress. And I want to thank the chairman for his 
outstanding leadership in calling us together with yet the 
sixth hearing on this issue.
    As many in this room know all too well, the collapse of the 
World Trade towers released a giant dust plume containing 
thousands of tons of pollutants, which exposed thousands of 
first responders and residents to pulverized cement dust, glass 
fibers, asbestos, lead, acid, and other toxins. But what many 
across the country still do not understand is the impact that 
dust cloud had on both responders and residents and, as today's 
hearing will show, how that dust cloud traveled from ground 
zero across the East River and into Brooklyn.
    Like the environmental and health effects on those who live 
near the 9/11 site, the environmental and health effects in 
Brooklyn are far from understood.
    One reason we know so little about the impacts in Brooklyn 
is that we still have so much to learn about the impact of 9/11 
on everyone affected because the current administration did not 
want to ask questions, let alone find the answers. The truth of 
the matter is that the New York delegation has had to fight 
very, very hard to achieve medical monitoring and treatment for 
the responders.
    But we cannot forget the residents, area workers, school 
children that were exposed and may continue to be exposed to 
toxins in the homes, offices, and schools. And currently there 
is really not any Federal funding available to monitor and 
treat them. And we need to change that.
    Worse, the administration has not even come up with a plan 
to help the residents who lived through the dust cloud or the 
responders who risked their lives in the aftermath of 9/11.
    Time and again, we have asked the administration to come up 
with a comprehensive long-term plan to medically monitor 
everyone who is exposed to the deadly toxins. And everyone who 
was exposed should be treated. And time and again they have not 
acted.
    Experts have testified to this committee that the health 
effects of 9/11 are persistent and long-term and will be 
prevalent, even 30 years from now in the future, when cancers 
begin to occur.
    To adequately address the 9/11 health crisis, we need a 
long-term plan that takes into account everyone exposed to the 
toxins: responders, rescue workers, cleanup workers, area 
residents, school children, residents, including the residents 
of Brooklyn.
    And I know that the new majority in Congress will be 
looking at these issues, as is evident from today's hearing, 
and that they will work in a bipartisan way to address the 
problem.
    Along with many of my colleagues, I have introduced a 
comprehensive Federal response called a James Zadroga plan, the 
9/11 Health and Compensation Act to ensure that everyone 
exposed is medically monitored and everyone who is sick is 
treated.
    The bill is named after New York police detective James 
Zadroga, who was among the first to die from respiratory 
illness related to his work at ground zero. It's drafted to 
continue, expand, and improve the Federal Government's response 
to the health effects of 9/11, providing for long-term medical 
monitoring and treatment.
    James Zadroga came down with something called pulmonary 
fibrosis. And we are going to hear more and more about it. The 
particulates are breathed in. The skin grows over it. And your 
lung becomes like an iron lung. You can't breathe. And you die. 
The only treatment so far is a lung transplant. And many of our 
first responders have come down with this deadly disease.
    With the work of the committee, we have been successful in 
securing $90 million for a monitoring program at Mount Sinai. 
Incredibly, the administration took $125 million out of the 
budget for Workers' Compensation. We had to work very hard to 
put that back into the budget for treatment and other concerns.
    We recently got a $25 million line item, budget item, in 
the President's budget for 25 million. He has promised and his 
people have promised to increase that to what the need is for 
treatment. We need to document that.
    Health professionals are telling us that for this 2-year 
term of Congress, it will cost roughly $256 million to treat 
those who are sick. We have written and met with Mr. Obey to 
put that in the budget. So we are working hard. We are making 
progress but not enough.
    Thank you very much.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T0872.001

[GRAPHIC] [TIFF OMITTED] T0872.002

    Mr. Towns. Thank you. Thank you very much.
    We are also delighted to have with us, of course, 
Congressman Murphy, who is also a member of the committee from 
Connecticut. So, Congressman Murphy?
    Mr. Murphy. Thank you very much.
    Mr. Chairman, this is the second opportunity that I have 
had to sit with you on a hearing on this subject in my first 
term. I have been drawn to this issue, not just by your 
leadership but also leadership of Congresswoman Maloney, 
Congressman Nadler, and Congressman Weiner. This is an 
important day to be here. And I am glad that I could join you 
from Connecticut.
    You know, we were all struck, those of us who watched the 
events of September 11th unfold on television and on the news. 
I was not a Member of Congress at the time, but we were all 
obviously struck by the bravery of those first responders and 
those people that rushed down to the site of the September 11th 
tragedy. They didn't wait for any bureaucracy. They didn't fill 
out any questionnaires. There was no red tape. They asked no 
questions. They responded because their country was in need.
    And it has struck me in the hearings that we have done that 
our government has not acted with the same expediency that 
those first responders acted. In fact, they have been met with 
bureaucracy, with red tape, and questions after questions after 
questions.
    Those people that responded to the tragedy in New York came 
largely from this metropolitan area, but we also know that they 
came from Connecticut, from the Fifth District. They came from 
New Jersey. They came from Representative Platts' area in 
Pennsylvania.
    I have had the great privilege over the course of the last 
couple of months of getting to know some of those brave men and 
women in the course of these hearings. And in my private life 
in Connecticut, I also have struggled with a family member who 
is dealing with the issue of pulmonary fibrosis. And for any 
family that has gone through that ordeal, you wouldn't wish it 
on your loved ones, on your friends, on anyone that you come in 
contact with.
    It is a terrible ordeal for a person, a family to go 
through. And to think that there are so many of our neighbors 
and our friends in the New York metropolitan area who responded 
to that crisis, perhaps people in the greater metropolitan area 
who may have been exposed to the debris and to the pollution 
that emanated from that site that may be at risk for a disease 
as terrible as that is one that should make us all shudder.
    Mr. Towns, this is an important hearing today. I am so glad 
to be able to come down and join you. I hope that this is yet 
just another piece in the puzzle that begins to prompt this 
administration, that begins to prompt our fellow Members of 
Congress to put not just the money behind this effort but to 
also put the expediency behind it that those brave men and 
women came through as they descended upon the World Trade 
Center site on that day and the days following.
    Thank you, Mr. Chairman.
    Mr. Towns. Thank you very much, Congressman Murphy.
    The person who--immediately after the incident happened, he 
started talking about the fact that the government has not 
budgeted the kind of funds needed to give us all the facts. He 
talked about the fact that there are environmental issues that 
must be addressed. And he has been saying it over and over 
again to anyone and everyone that will listen. Ladies and 
gentlemen, Congressman Nadler.
    Mr. Nadler. Thank you very much, Chairman Towns. I would 
like to thank you for holding this very important field hearing 
today in Brooklyn and for inviting me to hear testimony on the 
impact of the September 11th attacks on the health of area 
residents, workers, and students. I thank you for letting me 
make these opening remarks.
    Mr. Chairman, I represent the district where the World 
Trade Center once stood, the site of the tragic events of 
September 11, 2001, as well as, of course, representing large 
areas of Brooklyn. Like you, I represent many constituents who 
have suffered adverse health effects as a result of the 
horrible environmental impacts of the collapse of the World 
Trade Center towers.
    I have spent the better part of the last 5 years in public 
life cajoling the Federal Government to tell the truth to its 
citizens about 9/11 air quality, insisting there must be a full 
and proper cleanup of the 9/11 environmental toxins that to 
this day are still poisoning New Yorkers and for those already 
sick, be they first responders or area residents, workers, or 
school children, demanding that the government provide long-
term comprehensive health care.
    Unfortunately, every time I think we are making a bit of 
progress on this issue, I find myself shocked at the Federal 
Government's response. I know, Mr. Chairman, that you are as 
utterly dismayed as I was to hear at your February 28th hearing 
that the Department of Health and Human Services had absolutely 
no intent of including area residents, workers, and school 
children in the plan it is ostensibly developing to provide 
health care to victims of the post-9/11 environmental 
contamination.
    HHS officials say that this outrageous and arbitrary 
decision to limit the health response to first responders but 
not to area residents, workers, and school children was based 
on their belief that there does not exist sufficient data 
indicating that residents, workers, and students have, in fact, 
suffered negative health effects from 9/11. Of course, that is 
not true. We have a growing body of data, both anecdotal and 
otherwise, that I'm sure will be recounted here today.
    This decision, of course, is nothing more than a 
continuation of the Federal policy that has completely ignored 
the needs of these non-responder exposed populations. I by no 
means intend to imply that this administration has treated our 
first responder heroes well. They certainly have not. But there 
were other unnecessarily exposed populations as well because of 
the continuing misdeeds of the Federal Government.
    Let me be utterly clear. Given the Federal Government's 
reckless negligence and ongoing malicious actions, all affected 
residents, workers, and school children, no matter where they 
live, must be given relief by the Federal Government. There 
must be a comprehensive and scientifically sound indoor cleanup 
program implemented. And these affected individuals must be 
provided proper health care.
    As is now common knowledge, then EPA Administrator 
Christine Todd Whitman told New Yorkers shortly after September 
11th that the air was safe to breathe. This statement, which 
she repeated often and did not qualify, has since been shown by 
the EPA's own Inspector General, among others, to have been 
misleading, false, and politically motivated. But the 
administration stood by it and still does.
    And, as a result, countless first responders and, yes, also 
residents, workers, and students are sick and some are dead as 
a direct result of the foul deeds of EPA and the Federal 
Government.
    These statements, in effect, we were attacked first by the 
terrorists and then by our own government. These statements 
lulled Americans into a dangerous sense of false safety, 
engaged government decisionmakers the cover to take extremely 
perilous shortcuts.
    Federal Judge Deborah Batts put it well in a case brought 
against EPA by area residents, workers, and school children, 
``No reasonable person would have thought that telling 
thousands of people that it was safe to return to lower 
Manhattan while knowing that such return could pose long-term 
health risks and other dire consequences was conduct sanctioned 
by our laws.'' She found, in fact, that the actions taken were 
so bad that they shocked the conscience.
    While most Americans understand that those caught in the 
initial collapse of the towers and those first responders who 
toiled away in the pile for months were subject to a heavy 
acute dose of outdoor toxins, most people do not know that the 
environmental disaster still continues to exist today indoors.
    Like the debris, office furniture, steel beams, and human 
remains that have been found recently in buildings throughout 
lower Manhattan, dangerous contaminants such as lead, asbestos, 
mercury today remain in indoor spaces, such as apartments, 
workspaces, and schools in Manhattan, in Brooklyn, and possibly 
farther afield.
    Whereas nature cleans the outdoor air, it does not clean 
the indoor air. Toxins remain in carpets and drapes and porous 
wood surfaces and the HVAC systems of buildings.
    In April 2002, 5 years ago, I released a white paper, which 
is still available on my Web site, that meticulously details 
how the EPA's unfounded and misleading statements followed by 
the EPA's unlawful complete dereliction of responsibility 
resulted in totally inadequate hazardous materials testing and 
remediation inside residential, public, and commercial 
buildings downtown and in Brooklyn, putting the public's health 
at grave risk.
    The EPA illegally delegated its responsibility for indoor 
environmental quality and reoccupation of contaminated 
buildings and areas to the city environmental officials, who 
had no ability to handle such a situation, and endorsed the 
city's illegal and dangerous advice to area residents and 
workers to ``use a wet mop and a wet rag'' to clean their 
contaminated spaces, all in the service of continuing to cover 
up the original lies told by Ms. Whitman.
    In May of that year, after months of dodges, finger 
pointing, excuses, and a tremendous amount of pressure, EPA 
offered finally an indoor cleanup program. It was very soon 
clear to me and others that the plan was a sham.
    Not only was there no scientific basis to the plan. EPA 
actually asserted at the time that there was no need for a real 
cleanup program as there were, in fact, no real post-9/11 air 
quality problems indoors. The program they said was designed 
merely to reassure the public. In other words, it was pure 
public relations.
    This initial cleanup plan was voluntary and included only 
residences, not workspaces, or schools. They failed to treat 
buildings as a whole, which allowed for recontamination of some 
spaces and buildings that were not cleaned. It tested only for 
asbestos, even though it was known that the dust contained 
other harmful toxins, including heavy metals, glass, fibers, 
mercury, and lead.
    The program was arbitrarily geographically limited. Only 
buildings in Manhattan south of Canal Street and west of Allen 
and Pike Streets were eligible, even though physical inspection 
identified dust in locations outside of this area.
    Because of this, Brooklyn, for example, was and continues 
to be completely ignored in all of the EPA's program. To this 
day, EPA officials would like us to believe that there was a 
30,000-foot-high wall or perhaps a Star Trek-type force field 
magically stopping the plume and its toxins from going north of 
Canal Street or across the East River to Brooklyn.
    Despite EPA's repeated assurances to me at that time that 
they would ``expand the program where necessary'' to places 
like downtown and Brownstone and Brooklyn and Borough Park and 
Williamsburg that had numerous accounts of interior 
contamination, no such expansion ever occurred.
    A year later, in August 2003, after much public outcry, 
EPA's own Inspector General found that this original so-called 
testing and cleanup plan was indeed improperly limited in scope 
in terms of both what it was to look for and where it was to 
look for it deeply flawed in methodology and ``failed to 
utilize standard health-based benchmarks.''
    The same report documented White House interference in EPA 
press releases post-9/11, resulting in important cautionary 
sentences being deleted. The report notably stated that the 
delay in providing a proper government-organized cleanup may 
have contributed to unnecessary additional exposures to 
hazardous toxins.
    The IG's ultimate conclusion, EPA must----
    Mr. Towns. Will the gentleman yield?
    Mr. Nadler. Yes.
    Mr. Towns. Will the gentleman please summarize?
    Mr. Nadler. OK. EPA must engage in a real comprehensive and 
scientifically based testing and cleanup program to address 9/
11 contamination wherever it is found. Of course, to date, the 
EPA has done no such thing. In the last 2 years, they have had 
scientific panels set up to design proper cleanup programs and 
dissolved when the EPA started hearing things they didn't want. 
They are now proceeding with a new phony cleanup plan, just as 
phony as the original one.
    As you know, it has taken years of painstaking work on the 
part of the New York congressional delegation to get what 
little moneys we have for federally mandated 9/11 health 
response. But even that is mostly for the first responders. And 
there is plenty of data why we need all the funds.
    Because the administration continues to fail to act, I have 
introduced two key pieces of legislation that I believe will 
help provide relief. The 9/11 Comprehensive Health Benefits Act 
provides a sensible, easy to access, and cost-effective way to 
give comprehensive medical treatment to all individuals. The 9/
11 Heroes Health Improvement Act will provide more than $1.9 
billion in Federal funding for mental and medical health 
screening testing, monitoring, and treatment grants. Senators 
Clinton, Schumer, Kennedy, and Menendez have introduced 
companion legislation in the Senate.
    This bill would provide a necessary continued and expanded 
funding mechanism for the institutions that Mayor Bloomberg has 
called the World Trade Center Centers of Excellence.
    The Federal Government is culpable for recklessly allowing 
tens of thousands of people to be unnecessarily exposed to 
dangerous environmental toxins. It must take responsibility for 
two things. Most of the discussion has focused on the first. 
And that is responding to the health needs of the 9/11 first 
responders, and we must respond to that. But the second is to 
undo that second coverup. There were two coverups. The first of 
the impacts on 9/11 responders, that coverup was unraveled. And 
we are now trying to respond to it.
    The second coverup is still covered up. And that is the 
fact that people in Manhattan, Brooklyn, Jersey City, Queens 
are still being poisoned daily because the indoor spaces were 
never properly tested and cleaned and the EPA Inspector 
General's recommendations of August 2003 as to how to properly 
inspect and clean up all of the areas that may be necessary to 
clean up must be implemented so that people do not continue to 
be poisoned and so that future cases of cancer, mesothelioma, 
do not continue to be germinated by our deliberate negligence 
and malfeasance.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Jerrold Nadler follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.003
    
    [GRAPHIC] [TIFF OMITTED] T0872.004
    
    [GRAPHIC] [TIFF OMITTED] T0872.005
    
    [GRAPHIC] [TIFF OMITTED] T0872.006
    
    Mr. Towns. Thank you. Thank you very much.
    Now I yield 5 minutes to Congressman Weiner, who represents 
Queens and Brooklyn. I yield 5 minutes.
    Mr. Weiner. Thank you, Mr. Chairman.
    I won't take my full 5 minutes, and I want to express my 
gratitude to you and Mr. Platts for obliging those of us from 
the New York delegation who have so much to say about this. I 
think you are building a record that someday will be reviewed 
and will strike many as, frankly, intuitive that on an attack 
of this magnitude, the Federal Government bears the 
responsibility for taking care of those who instinctively, as 
Representative Murphy said, responded as good citizens would.
    I think there are two things that are going to emerge. But 
first I want to say thank you to Carolyn Maloney and to Jerry 
Nadler, who have, just like you, Mr. Chairman, been beating the 
drum on this issue.
    It has been, frankly, after months and months of many of us 
not being quite sure what to think of the responsibility and 
where it lies. The record that been established by Mr. Nadler 
and Ms. Maloney makes it crystal clear.
    The EPA bears the responsibility for saying to us clearly 
and loudly shortly after September 11th that it was safe to 
return to your homes, it was safe to return to ground zero. It 
is my view that this is fundamentally and wholly a Federal 
responsibility that has to be absorbed by the EPA, the 
Department of Health and Human Services, and those of us in 
Congress.
    But lest this be viewed as a simply lower Manhattan or a 
downtown Brooklyn problem, all of us have stories about where 
we were on September 11th. I, like so many New Yorkers, was 
here in New York because it was primary day. After traveling 
around to Polls and trying to find as many citizens as I could, 
I returned to my office.
    And, as you know, Mr. Towns, my office at the time was in 
the Lundy's Building in Sheepshead Bay, 1901 Emmons Avenue, 
about as far south as you can go and almost as far as you can 
go in Brooklyn away from ground zero. I had at the time a 
doorway to my office that led to a little balcony right by the 
Bell Parkway down by Sheepshead Bay in Manhattan Beach.
    There were scraps of paper, not sediment, not invisible 
soot, but scraps of paper from the explosion, from the collapse 
of the buildings, and from that terrible day that were settling 
on my terrace in Sheepshead Bay.
    If you think that this was a problem that only affected 
those were within a stone's throw of ground zero, you clearly 
don't understand what many New Yorkers and many residents of 
Brooklyn and Queens and all five boroughs in Jersey know 
because they were there that day. If there were carcinogens, if 
there were elements of asbestos, if there were disease-carrying 
elements in the air, they were all over our area. And I think 
this is another step in accepting responsibility for that.
    And it could well mean that we are vigilance in this for a 
generation. And it could well mean that this is going to be a 
problem we are going to have to wrestle with a long-term 
comprehensive health care plan. But one thing I think we all 
agree upon is that this is a responsibility that those of us in 
the Federal Government have to accept.
    I yield back the balance of my time.
    Mr. Towns. Thank you very much, Congressman Weiner.
    At this time we would like to call to the witness desk 
Yvonne Graham, the Deputy Borough President of Brooklyn.
    Ms. Graham. Thank you very much.
    Mr. Towns. You know, just before you start, first of all, 
let me just tell you a little bit about her. A native of 
Jamaica, West Indies, Deputy Borough President Yvonne Graham 
has been a pioneer in the arena of public health for more than 
two decades. As Brooklyn's deputy borough president, Ms. Graham 
oversees health care policy and all human services for the 
borough president.
    Ms. Graham has many publications. She has received numerous 
national and local awards. I am delighted that she is with us 
today.
    But before we start, it is the policy of this committee 
that we swear witnesses in. So will you please stand and raise 
your right hands?
    [Witness sworn.]
    Mr. Towns. Let the record reflect that she has responded in 
the affirmative.
    You may be seated, and you may begin.

 STATEMENT OF YVONNE GRAHAM, DEPUTY BROOKLYN BOROUGH PRESIDENT

    Ms. Graham. Good morning, Chairman Towns and distinguished 
members of the Subcommittee on Government Management, 
Organization, and Procurement. I want to thank you for 
spearheading this important dialog on the health and 
environmental impacts of 9/11, particularly as it relates to 
Brooklyn residents and businesses. My name is Yvonne Graham, 
deputy borough president, here to read the following testimony.
    Both our president, Marty Markowitz, and I are extremely 
grateful to our colleagues from the New York delegation, 
Congressmen Towns, Nadler, Engel, and Weiner, for introducing 
the 9/11 Heroes Health Improvement Act of 2007.
    It is critically important that Brooklyn is included in 
research, surveys, testing, and health services and that we 
receive our fair share of funding so that health care resources 
can reach the victims of 9/11.
    We know that on September 11, 2001, the plumes of smoke 
that resulted from the devastating attacks on the World Trade 
Center drifted across the East River to downtown Brooklyn, 
Brooklyn Heights, Carroll Gardens, Cobble Hill, and Red Oak. 
These Brooklyn communities were impacted by the smoke as well 
as the film of dust that later settled on our parks, streets, 
homes, and businesses across the borough.
    I was living in Fort Green at the time and experienced this 
directly since for days after the attack, my window sills were 
coated with dust.
    We also know that debris from the site continued to burn 
and release contaminants into the air for an additional 3 
months. The U.S. Environmental Protection Agency's Web site now 
indicates that contaminants such as concrete, glass, 
fiberglass, asbestos, and other toxic chemicals were present.
    Despite the fact that Brooklyn was in the direct line of 
the plume, our borough has been nearly excluded from testing 
and completely excluded from cleanup services.
    The test results for asbestos and white samples provided on 
the EPA Web site only reflect lower Manhattan. Although it may 
be too late to determine the level of contaminants that 
blanketed Brooklyn communities, it is not too late to address 
the short and long-term health effects that may have resulted.
    Of the 38,937 New Yorkers who enrolled in the World Trade 
Center health registry, which was created to track the health 
of residents and those directly exposed to the World Trade 
Center collapse, 8,202 cite Brooklyn as their home, more than 
20 percent.
    But respondents to this survey had to be living south of 
Canal Street in Manhattan or have been directly involved with 
the World Trade Center site or surrounding area to take the 
survey. That means that those who live in the Brooklyn 
neighborhoods that experienced the direct path of the smoke 
plume but were not in the downtown area during the attack could 
not take part in this important health analysis.
    Nearly half of the register's individuals who were measured 
in the survey have reported new or worsened sinus, breathing, 
or respiratory problems. So it is safe to assume that exposure 
to the initial plume of smoke and the debris smoke that 
continued until December would also have negative health 
impacts.
    Although Brooklyn was in the direct path of the smoke 
plume, we received a far smaller share of the $140 million that 
the U.S. Department of Health and Human Services awarded to 
health care organizations following the attacks.
    Brooklyn received just over $5\1/2\ million compared to 
Manhattan's $106 million. The Bronx received $9\1/2\ million of 
funding, nearly double the allocation that Brooklyn received.
    As elected officials, our No. 1 priority is ensuring the 
health and well-being of our residents. Elected officials, 
government agencies, health care providers, and community-based 
organizations must work together to protect our residents' 
health and come up with comprehensive health solutions to 
existing challenges.
    Despite the errors or failures of the past, our call to 
action should be making sure that Brooklynites who continue to 
suffer from health complications as a result of the attacks get 
the health care and services they need and deserve.
    In addition, securing long-term funding for research and 
treatment so that all victims can be accommodated and 
compensated is our mandate. Our colleagues in the House and 
Senate are to be congratulated for your tireless efforts.
    The phrase ``Never forget'' was ubiquitous after 9/11, 
referring to those we lost. We honor their memory, of course, 
but we must also never forget those who selflessly responded to 
the tragedy and survived. It may only be through the continuing 
momentum and action from our legislators that we will fulfill 
our government's duty to first responders and others who have 
already sacrificed so much.
    We are grateful to Congressman Towns and the members of the 
Subcommittee on Government Management, Organization, and 
Procurement for shining a light on this issue and for asking 
how we can work together to respond to the health and 
environmental impacts of the 9/11 disaster. Thank you all for 
refusing to forget.
    [The prepared statement of Ms. Graham follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.007
    
    [GRAPHIC] [TIFF OMITTED] T0872.008
    
    Mr. Towns. Thank you very much, Deputy Borough President 
Graham, for your testimony. We thank you for it.
    Let me begin with some questions. You know, I represent 
Brooklyn. I'm not like Nadler and Weiner and Carolyn Maloney. 
They represent other boroughs. But I only represent Brooklyn.
    So my concern, of course, in this instance, the primary 
concern would be Brooklyn. I'm concerned about people 
everywhere in all places, but I must admit that my district is 
the one that I am fighting for.
    What can we do to create a comprehensive plan? Because I 
would not want to have Queens and Staten Island and, of course, 
Manhattan and the Bronx fighting us as we move forward, but we 
need to have a plan, I think, that will help everybody. And 
also we have some folks who came in as volunteers and, of 
course, to help us. And now they have problems.
    So I think it requires a Federal fix, but I don't want to 
start a fight. So what can we do?
    Ms. Graham. First of all, Mr. Chairman, I know that the 
Office of Emergency Management has been doing a fantastic job 
in terms of raising awareness about how to be prepared in the 
event of future disasters.
    I also know that the New York disaster interfaith services 
have been working with our faith-based institutions to come up 
with a plan of helping people to understand where to go and 
what to do in the event of disasters.
    But I think a comprehensive plan that includes all of our 
government agencies, all of our schools and colleges and 
community-based organizations as well as our health services 
organizations is critical to coming up with a comprehensive 
plan, particularly, as you know, that Brooklyn has a large 
percentage of immigrants. And sometimes it's very difficult to 
reach into immigrant communities.
    So community-based organizations have a particularly 
important role to play in this comprehensive plan, but it is 
only through working together that we can truly come up with a 
comprehensive plan to address the problems that we have now and 
to prepare for the event of any future disasters.
    Mr. Towns. Do you have any special suggestions or comments 
above and beyond that you would like to make to this 
subcommittee in terms of what we might be able to do that would 
further put some light on it? And the other part of the 
question would be, have you had anyone to come in to talk to 
you or to say to you that ``I have a problem because of 9/11?''
    Ms. Graham. We have not had anyone in particular who have 
come in, but I think also that many people may not attribute 
new or worsening symptoms to 9/11. I believe that one 
particular recommendation is to ensure that all of our 
physicians in our health care institutions receive special 
training to ask people when they conduct an assessment about 
symptoms that may have some kind of correlation to this 
disaster so that they can get further testing and treatment.
    Mr. Towns. Thank you very much.
    And that is the reason why I am so happy to see a physician 
in the room, Dr. Frank Focus, in the room, who is a physician, 
of course, and has done a lot of work in this area. And the 
person that had a lot to do with this hearing being here today 
is Rabbi Niederman, who down through the years has complained 
about the fact that we are not paying enough attention to the 
Williamsburg section and areas that we know that really were 
hit.
    So I want to thank them both for their support and coming 
out and being with us today. I also want to thank you for all 
the work that you have done in health care because when it 
comes to health care, there is no doubt about it. You always 
are in the forefront. And we really, really appreciate your 
involvement on behalf of the folks of Brooklyn. Thank you so 
much.
    Now, I would like to yield to the ranking member, 
Representative Platts.
    Mr. Platts. Thank you, Mr. Chairman. And, Madam Vice 
President, thanks for your testimony and your service here in 
Brooklyn.
    One of the issues you mentioned is the dollar amount that 
has been distributed thus far and how it was distributed in an 
inequitable fashion as far as the different boroughs. As we 
move forward and the clear need for additional assistance, 
including from the Federal Government, one of the issues is 
going to be not just how much but how to distribute it and to 
avoid perhaps the inequities ideally that we saw in the past.
    I think as a followup to the chairman's question, is there 
a position on yourself or on behalf of the borough that you 
suggest as a more appropriate manner for distributing whatever 
dollar amount is going to be available to the various boroughs 
for the recovery effort formula or perhaps the commission 
established Federal, State, and local officials to try to get 
to what I think you are after, which is everybody being treated 
fairly and, as the chairman said, not pitting one borough and 
its residents against another but that everybody is fairly 
treated.
    Ms. Graham. Absolutely. I think that, first, funding should 
be commensurate with need. We also mentioned that over 20 
percent of those who participated in the survey cited that they 
lived in Brooklyn. That's No. 1.
    And, No. 2, when we look at the proximity, you know, 
downtown Brooklyn is only about a mile away from the World 
Trade Center. And the Bronx is almost 12 miles away. And, yet, 
Bronx received a far greater amount. And I'm not sure how they 
came up with this formula, but clearly Brooklyn was under-
represented in funding.
    Mr. Platts. Was there any direct contact from the borough 
officials to HHS or EPA, any of the Federal agencies, about 
that distribution?
    Ms. Graham. We did not make any direct contact about the 
distribution. What we did try to find out was when they came up 
with the World Trade Center health registry to ensure that 
Brooklynites who lived in downtown Brooklyn should participate 
in it.
    But clearly when the instructions came out, you had to be 
in Manhattan at the time. Even if you lived in Brooklyn, you 
had to be in Manhattan at the time to participate. But we did 
try to reach out to make sure that more Brooklynites were 
included.
    Mr. Platts. And that is part of the misguided directions 
from the Federal Government early on of that even if you 
resided here, you should participate or should have been 
included in that participation.
    I again thank you for your leadership. I had the pleasure 
last evening my first dinner at Junior's and then to walk the 
neighborhood of Carroll Garden. I have cousins who live on 
Carroll Street and got to visit with them. And just standing 
and looking from their rooftop back of seeing----
    Ms. Graham. Sure.
    Mr. Platts. How direct a flow that plume would have been on 
9/11 and how evident the need to make sure that not just those 
who live here and went to the site but who live here are 
assisted. And we certainly will continue and are honored to 
work with your New York delegation on this issue.
    So thank you for your testimony.
    Ms. Graham. Thank you, too.
    Mr. Towns. Thank you very much, Mr. Platts.
    Now I would like to yield to Congresswoman Maloney.
    Ms. Maloney. Thank you. And thank you, Madam Deputy Borough 
President, for your testimony and for your concern.
    Many of my questions were answered by the chairman and the 
ranking member. Just very briefly, can you think of anything 
else that we should be doing to help the people of Brooklyn 
that is not being done today?
    Ms. Graham. As I mentioned before, Brooklyn has a large 
number of immigrants. And my sense is that a great majority of 
people from Brooklyn who volunteered at the World Trade Center 
site were immigrants. Some of them might have been 
undocumented. We don't know. But it is very difficult to tell 
of those people how many of them do not have health care 
coverage and insurance and may be experiencing symptoms that we 
are not sure whether they are directly related to their 
participation.
    And so, again, we need to ensure that our health care 
workers or health care providers are in tune with those new and 
worsening symptoms and really look to see whether they may be 
affected.
    Ms. Maloney. Thank you very much.
    Mr. Towns. Now I yield to Congressman Murphy of 
Connecticut.
    Mr. Murphy. Thank you very much, Mr. Chairman. Welcome, Ms. 
Graham.
    One of the things that greatly concerns me is that when we 
have been visited by national tragedies, whether they be 
September 11th or the disaster on the Gulf Coast, the 
administration will sort of swoop in on the days following and 
make very broad promises that this is a Federal issue the 
Federal Government is going to come in and take care of, and 
make all sorts of promises and commitments to make a community 
whole.
    And then in the months and years following, the rhetoric 
coming from some of the administration officials starts to get 
seeped with cost sharing, that this has to be now a Federal and 
State or Federal and municipality dual commitment. And we 
certainly heard that in our hearing in Washington, DC.
    And my question to you is this and to the extent that you 
have the information or can get it following this hearing. Do 
we have an idea up until now of what kind of resources toward 
this problem have had to have been committed by the borough or, 
in addition to or in the alternative, if we don't have the 
proper Federal funding going forward what kind of commitment 
from the borough we should expect going forward in the absence 
of a Federal commitment to identify the problem, identify the 
victims of that pollution, and then treat them?
    Do we have any handle on how much we have spent here at the 
borough level and how much we may have to spend going forward 
if we don't do the right thing at the Federal level?
    Ms. Graham. We looked at the $140 million that was provided 
by Health and Human Services. And that was when we recognized 
that Brooklyn was seriously under-represented in terms of the 
funding that is available.
    Right now we want to thank the committee for keeping the 
spotlight on this issue and so from this moment on, we will 
make sure that we keep a handle on it so that Brooklyn gets its 
fair share of funding.
    Mr. Murphy. And part of the frustration is that no one 
knows the extent of this problem.
    Ms. Graham. Sure.
    Mr. Murphy. And so the exposure for a municipal health 
system or a regional health system is potentially 
unquantifiable, which is one of the problems with having the 
responsibility for it lie at a local level.
    Thank you very much, Mr. Chairman.
    Mr. Towns. Let me further add on that point that our 
hospitals have indicated that there has been an increase in 
terms of people coming in and, of course, complaining about 
respiratory problems and that the doctors and nurses in these 
various medical facilities are saying that it has to be 
associated with 9/11, which means that is additional cost as 
well because these are people that would not be in the system 
if it had not been for 9/11.
    And so the outcry now is that we need to have a Federal fix 
and we need to have a Federal fix for a lot of reasons because 
that even volunteers, we don't want to discourage them. We want 
them to continue to volunteer. If we walk away from them and 
ignore them, ignore their complaints, and not do anything about 
it, and hope that there was never another crisis, but if there 
is one, then people will not respond. So that is the reason why 
I think that we need to come up with a Federal fix.
    On that note, I yield to Congressman Nadler. Congressman 
Nadler.
    Mr. Nadler. Thank you. And thank you for your testimony, 
Madam Deputy Borough President.
    As I mentioned in my testimony, I have always maintained 
that there were two coverups at work here, one of which was the 
coverup of the impact, of the health impact, of 9/11 on the 
first responders, one people who were caught in the plume, and 
then people who worked at the site. And that coverup has been 
unraveled, largely by the work done at Mount Sinai and some 
other places and by the Daily News. It took 5 years, but people 
finally acknowledged the problem there.
    The second coverup, which is still under cover, is the 
impact of the fact that we have never properly cleaned up 
indoor spaces and that people are probably still being poisoned 
and cancers incubated today, which we will find about 15 years 
from now.
    Now, the EPA announced a cleanup, what was characterized by 
myself and then by the Inspector General as a phony cleanup 
back in 2002 in lower Manhattan only and again recently again 
only for lower Manhattan.
    Has there been any discussion, to your knowledge, with EPA 
about inspection of indoor spaces in Brooklyn or cleanup, 
decontamination of indoor spaces, residents, schools, 
workplaces in Brooklyn?
    Ms. Graham. Not to my knowledge, but I believe that there 
is a need for additional funding for continued research and 
surveys and testing so that we can come up with that 
information because right now we can only assume.
    Mr. Nadler. Now, we know, do we not, that much of Brooklyn 
was in the path of the plume? And, as Congressman Weiner said, 
things fell all over at Lundy's and Borough Park and in Park 
Slope and Williamsburg, all over the place. And we know that 
nature cleans up the outdoor air but that it doesn't clean up 
the indoor air.
    So it's safe to assume that there is a lot of indoor 
pollution still existing in Brooklyn?
    Ms. Graham. Absolutely. And we know that there are 
contaminants. Mercury, for example, could be in the cracks, in 
the floors, could be in the carpet, could be in the curtains 
for many, many years.
    Mr. Nadler. And the EPA has never spoken to you or to, to 
your knowledge, to anybody in the city government about doing 
inspections to find out the extent of contamination in 
Brooklyn?
    Ms. Graham. Not to my knowledge. And you are also aware 
that Brooklyn is not a city by itself, as it once was. And so 
whatever discussions take place----
    Mr. Nadler. City Hall also seems oblivious to the 
contamination of Brooklyn, does it not?
    Ms. Graham. Well----
    Mr. Nadler. Well, let me put it this way. Has City Hall, to 
your knowledge, ever asked EPA to undertake any kind of 
examination in Brooklyn?
    Ms. Graham. Not to my knowledge.
    Mr. Nadler. Has City Hall ever offered the city of New York 
to do such an examination in Brooklyn?
    Ms. Graham. Not to my knowledge.
    Mr. Nadler. Has City Hall ever asked anyone else to do such 
an examination in Brooklyn?
    Ms. Graham. Not to my knowledge.
    Mr. Nadler. Let me ask you one further thing. The Inspector 
General back in August 2003 in his report said that the only 
proper way to find out the extent of the indoor contamination 
was to select several hundred randomly selected indoor spaces, 
apartments, workplaces, schools, whatever, in concentric 
circles going out from the World Trade Center, concentric 
circles without regard to borough boundaries or rivers or 
anything else, and test several hundred such sites and that you 
might find out that in one direction, the problem extended for 
three blocks and in another direction for 3 miles.
    Has anyone, to your knowledge, ever suggested, other than 
the EPA Inspector General and other than me and some other 
individuals, has anybody in the executive branch of government 
ever suggested, doing such random testing and mapping of the 
contamination?
    Ms. Graham. Not to my knowledge.
    Mr. Nadler. Do you think it necessary?
    Ms. Graham. Absolutely.
    Mr. Nadler. Thank you.
    [Applause.]
    Mr. Towns. Thank you. Thank you very much. Thank you very 
much for your testimony. We look forward to working with you in 
the days and months ahead to make certain that Brooklyn gets 
its fair share. Thank you very much, Deputy Borough President.
    And now we will call our next panel. Mr. Cheong Chan, 
former Assistant Inspector General for Program Evaluation, 
please come forward, Environmental Protection Agency. Mr. David 
Newman, industrial hygienist, New York Committee for 
Occupational Safety and Health, please come forward. Mr. 
Patrick Roohan, please come forward, director of Bureau of 
Program Quality, Information and Evaluation, New York State 
Department of Health. Anthony Szema, assistant professor of 
medicine, Stony Brook College of Medicine; Suzanne Mattei, 
executive director of Sierra Club of New York City, please come 
forward. And Peter Gudaitis, executive director of New York 
Disaster Interfaith Services, please come forward.
    It is a longstanding tradition of this committee that we 
swear our witnesses in. So would you please stand and raise 
your right hands?
    [Witnesses sworn.]
    Mr. Towns. Thank you. You may be seated. Let the record 
reflect they all indicated in the affirmative.
    Let me begin with you, Ms. Mattei, and come right down the 
line.
    Ms. Mattei. All right. We have a PowerPoint.
    Mr. Towns. A PowerPoint? OK.
    Ms. Mattei. Good day. My name is----
    Mr. Towns. Why don't we start with Mr. Chan, then, and come 
down to you? You don't have a PowerPoint, right?
    Mr. Chan. No, I don't.
    Mr. Towns. We'll start with you, then. Save the PowerPoint.
    Mr. Chan. OK.

  STATEMENTS OF KWAI-CHEONG CHAN, FORMER ASSISTANT INSPECTOR 
   GENERAL FOR PROGRAM EVALUATION, ENVIRONMENTAL PROTECTION 
    AGENCY; DAVID M. NEWMAN, INDUSTRIAL HYGIENIST, NEW YORK 
 COMMITTEE FOR OCCUPATIONAL SAFETY AND HEALTH; PATRICK ROOHAN, 
     DIRECTOR, BUREAU OF PROGRAM QUALITY, INFORMATION AND 
 EVALUATION, NEW YORK STATE DEPARTMENT OF HEALTH; DR. ANTHONY 
SZEMA, ASSISTANT PROFESSOR OF MEDICINE, SUNY-STONY BROOK SCHOOL 
OF MEDICINE; SUZANNE Y. MATTEI, EXECUTIVE DIRECTOR, SIERRA CLUB 
 OF NEW YORK CITY; AND PETER GUDAITIS, EXECUTIVE DIRECTOR, NEW 
               YORK DISASTER INTERFAITH SERVICES

                 STATEMENT OF KWAI-CHEONG CHAN

    Mr. Chan. Good morning, Chairman Towns, Congressmen Platts, 
Nadler, Murphy, Weiner, and Congresswoman Maloney. My name is 
Kwai Chan. I am the former Assistant Inspector General for 
Program Evaluation.
    I appreciate the opportunity to appear before you today to 
discuss the work that we did in the Office of Inspector General 
on the most important subject.
    While many of the data and findings are taken from the two 
reports that were done under my direction in EPA, the opinions, 
findings, and conclusions expressed in my testimony are solely 
that of my own and do not represent those of the OIG and the 
EPA or any other government agencies. Allow me just to 
summarize a few points I would like to make.
    EPA's early statement following the collapse of the World 
Trade Center tower reassured the public regarding the safety of 
the air outside the ground zero area. However, when EPA 
administrator announced on September 18, 2001 that the air was 
``safe'' to breathe, it did not have sufficient data and 
analysis to make such a blanket statement.
    While the statement did not have any qualifications in it, 
in fact, when you look behind it, what they really meant was 
that the statement only applies to asbestos and not other 
pollutants; long-term health effects and not short-term; the 
general public and not the ground zero workers; outdoor air and 
not indoor air; and, finally, health adults and not sensitive 
subpopulations, such as children and the elderly.
    Furthermore, the White House Council on Environmental 
Quality influenced the information that EPA communicate to the 
public through its early press releases when it convinced EPA 
to add reassurance statements and delete cautionary ones.
    Regarding indoor air cleanup, evidence indicates that 
government communication was not very effective in persuading 
the public to take the recommended cleanup practices. So, as a 
result, we recommend that the cleanup should be considered, 
both indoor and outdoor together, and also building as a single 
system. That means you clean up from the outside and go all the 
way in as well as look at the HVAC.
    We also recommend that the EPA should sample beyond lower 
Manhattan, moving in concentric circles from ground zero and 
out, and see the degree of deposits.
    Given these communication and exposure concerns, my office 
decided to conduct our own survey of New York City residents. 
The survey also was designed to determine if contamination from 
the dust and smoke spread into the homes of residents located 
beyond lower Manhattan, the zone designated as eligible for the 
EPA lead testing and cleanup programs.
    Although the survey response has a much lower response rate 
than what we expected, nevertheless, it is instructive to 
present some of the data. Let me summarize.
    Overall, the majority of respondents want more information 
regarding outdoor and indoor air quality, wanted this 
information in a more timely manner, and did not believe the 
information they received from the government. For every 
respondent who was satisfied, there were three to six 
respondents who were dissatisfied with the government 
information.
    Further, data indicated that contamination from the 
collapse of the World Trade Center towers spread into the homes 
of respondents located beyond lower Manhattan.
    About 9 out of every 10 respondents were concerned about 
the short-term health effects associated with outdoor air. And 
7 out of every 10 were concerned about long-term health 
effects. For indoor air, more than 7 out of 10 were concerned 
about short-term health effects and more than 5 out of 10 the 
long-term effects.
    In lower Manhattan, half of the respondents reported that 
their residents had been contaminated with dust and/or debris 
due to the collapse. In Brooklyn, about a quarter responded and 
reported their residence had been contaminated. And for the 
residents of Manhattan, over 10 percent reported contamination.
    Only about 1 out of 10 respondents knew about EPA's 
response to September 11th Web site. And about half of those 
who knew the Web site visited it. And the reason we did that is 
because the administrator asked us specifically to ask these 
questions to see how effective they were in reaching out to the 
public through the Web site.
    The majority, 6 out of 10, respondents, however, were aware 
of key World Trade Center-related information, such as EPA's 
recommendation to have contaminated homes professionally 
cleaned and EPA lead testing cleanup program in the eligible 
area of Manhattan. Despite this awareness, relatively few 
respondents with home contamination had their homes tested for 
asbestos or had their homes professionally cleaned.
    In closing, overriding lessons learned was that EPA needs 
to be prepared to assert its opinion and judgment with data and 
with some science on matters that impact on human health and 
the environment.
    Although many organizations were involved in addressing air 
quality from the World Trade Center collapse, subsequent events 
have demonstrated that ultimately the public, the Congress, and 
others expect EPA to monitor and resolve environmental issues. 
This is the case, even when EPA may not have the overall 
responsibility to resolve these issues or the necessary 
resources to address them.
    This ends my statement. Thank you.
    [The prepared statement of Mr. Chan follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.009
    
    [GRAPHIC] [TIFF OMITTED] T0872.010
    
    [GRAPHIC] [TIFF OMITTED] T0872.011
    
    [GRAPHIC] [TIFF OMITTED] T0872.012
    
    Mr. Towns. Thank you very much for your testimony.
    Mr. Gudaitis.
    Mr. Gudaitis. Thank you, Mr. Chairman.

                  STATEMENT OF PETER GUDAITIS

    Mr. Gudaitis. Thank you for your invitation, Mr. Chairman, 
and to your colleagues, particularly to Representative Maloney, 
who has been such a tireless advocate for our work and that of 
my staff.
    My name is Peter Gudaitis. I am the executive director of 
New York Disaster Interfaith Services [NYDIS]. NYDIS is a 
501(c)(3) federation of approximately 30 faith-based human 
service providers and philanthropies who work in partnership to 
provide secular disaster readiness response and recovery 
services in New York City.
    As it pertains to 9/11, NYDIS has six full-time recovery 
workers who manage a variety of advocacy and recovery programs 
for human service caregivers, religious leaders, direct 
victims, and residents, including specifically the New York 
City 9/11 Unmet Needs Roundtable. Since 2002, the roundtable 
has distributed approximately $6 million to over 2,500 direct 
victims and injured recovery workers.
    Our target clients are under-served and under-resourced 
direct victims and health-impacted recovery workers and 
residents. Assistance is provided by application of a qualified 
caseworker on behalf of their client and must fund an emergency 
need or secure a client's sustainable recovery.
    The roundtable has been a collaboration of over 80 human 
service providers and 18 donors over the past 6 years since it 
was established by the faith community in 2002. The roundtable 
has provided case management resources, peer review, and 
referral services to caseworkers.
    As of 2006, with the support of the American Red Cross 
Liberty Fund and Episcopal Relief and Development, NYDIS has 
also been the sole provider of case management coordination, 
caseworker training, and the primary funder of case managers 
for the New York City recovery community.
    Currently the only remaining donors are the Lutheran 
Disaster Response of New York, NYDIS, and Safe Horizon. Sadly, 
all current roundtable funding of about $2.3 million a year, 
terminates in December 2007.
    9/11 resulted in a prolonged airborne dissemination of a 
smoke plume throughout lower Manhattan that moved over 
Brooklyn. And I can attest to this as a lower Manhattan 
resident. At the time of 9/11, I lived across the street from 
St. Paul's Chapel and lost my living room windows and lived in 
New Jersey for 3 months, an exciting adventure.
    As hundreds of thousands of Brooklynites and lower 
Manhattan residents witnessed on 9/11, they also reported 
physical, psychological, and economic impact immediately 
following the attack but were told their injuries or losses 
were not a direct result of the disaster as designated by the 
government or aid agencies that concentrated their resources in 
lower Manhattan.
    It has been our experience that many Brooklyn residents 
expressed anxiety about the effects of the dust plume, which I 
expect my colleagues will discuss in their testimonies. Those 
effects have since surfaced as serious health threats to the 
residents and recovery workers, many of whom continue to 
struggle as they attempt to recover from the emotional, 
medical, and economic impacts.
    In order to discuss the impact of 9/11 on people, we need 
to answer three questions: where have we been, where are we 
now, and where we will go from here.
    In the early days of 9/11, during that 10-month period 
following the cleanup, the attention of larger relief agencies 
was focused on lower Manhattan workers and residents below 
Canal Street.
    From 2002 to 2004, 1,612 people were assisted by the 
roundtable. Approximately 30 percent were from Brooklyn. Of 
those, the vast majority of individuals receiving financial 
assistance were dislocated workers in industries affected by 9/
11.
    Since individuals affected outside of lower Manhattan and 
south of Canal Street as a whole were not eligible for FEMA's 
18 months' mortgage and rental assistance nor Red Cross 
September 11 Fund moneys, the roundtable's assistance to 
clients focused about 56 percent on rent, about 12 percent on 
utilities, and then other basic human needs.
    The ethnic demographics of the roundtable clients during 
those years were 42 percent Hispanic; 21 African American; 21 
Caucasian; 6 percent Arab, Persian; and 4 percent Asian.
    Coinciding with the close of the United Services Group in 
2004 and over the past 2 years, we have seen a 200 percent 
increase in cases. For the residents that were impacted 
psychologically and especially those who have not been eligible 
for large amounts of aid due to geographic eligibility 
restrictions, recovery has been more complicated. And there 
continue to be needs that surface even today.
    Currently NYDIS receives an average of 15 calls a month 
from new impacted residents or clients who are seeking case 
management assistance. In 2006, NYDIS saw an 80 percent 
increase in clients over 2005 in terms of the number of 
impacted individuals seeking assistance.
    Currently 20 percent of that 2,900 are residents of 
Brooklyn. Of these, about 88 percent were either recovery 
workers or lower Manhattan workers. The other 11 percent or so 
are impacted residents. Ethnically these residents are 32 
percent Caucasian; 24 percent Hispanic; 16 percent African 
American; 15 percent Arab, Persian; 6 percent Polish; and 4 
percent Asian.
    We are now facing a crisis in human services as hundreds of 
new cases of 9/11-impacted people come forward. Clients are now 
forced to wait as long as 2 or 3 months to seek case management 
assistance or medical screening.
    Currently an average of 60 percent of the 332 ill recovery 
workers seen monthly at Mount Sinai seek case management 
services. About 17 percent of those are Brooklyn residents.
    Where do we go from here? Increasing numbers of health-
impacted people are coming forward for critically needed 
services. In some cases, services will save clients from 
hopelessness or dying with dignity. Medical treatment for ill 
people, psychologically or physically, is critical. But these 
services do not address the difficulties of 9/11 health 
impacted clients without case management services.
    At a minimum, 9/11 clients that we are assisting today 
deserve the same level of services that was given to victims in 
the first few years after 9/11. They deserve continuity of 
services, coordinated assistant, and treatment, unmet needs 
assistance, and timely access to care. And they deserve case 
managers with manageable case loads.
    Currently caseworkers have an average of 220 cases per 
caseworker. During 9/11's height under the USG, there were 60 
clients per caseworker.
    Last, if we leave these health-impacted people without 
support, it could impair our ability to mobilize people to keep 
our residents safe following the next disasters. Our workers 
and volunteers deserve better from us from the help they gave 
in rebuilding our community.
    The sad fact of the matter is Federal assistance was used 
to hire the undocumented and Federal assistance was not given 
to mandate protection. And we owe these people a debt of 
gratitude and the ability to support them as they continue to 
struggle to recover or die with dignity.
    [The prepared statement of Mr. Gudaitis follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.013
    
    [GRAPHIC] [TIFF OMITTED] T0872.014
    
    [GRAPHIC] [TIFF OMITTED] T0872.015
    
    [GRAPHIC] [TIFF OMITTED] T0872.016
    
    [GRAPHIC] [TIFF OMITTED] T0872.017
    
    [GRAPHIC] [TIFF OMITTED] T0872.018
    
    [GRAPHIC] [TIFF OMITTED] T0872.019
    
    [GRAPHIC] [TIFF OMITTED] T0872.020
    
    [GRAPHIC] [TIFF OMITTED] T0872.021
    
    Mr. Towns. Thank you very much for your testimony.
    Mr. Newman.
    Mr. Newman. Thank you.

                   STATEMENT OF DAVID NEWMAN

    Mr. Newman. Good morning, Chairman Towns, members of the 
subcommittee, and Representatives Maloney and Nadler. My name 
is David Newman. I am a Brooklyn resident. I am an industrial 
hygienist with the New York Committee for Occupational Safety 
and Health [NYCOSH].
    I had the privilege of serving as a member of the EPA, as a 
nongovernmental member of the EPA, World Trade Center expert 
technical review panel and as a member of the exposure 
assessment working group of the World Trade Center worker and 
volunteer medical screening program. I currently serve on other 
9/11-related advisory boards at the World Trade Center register 
and at the Bellevue Hospital World Trade Center Environmental 
Health Center.
    The 9/11 attacks produced two primary sources of 
environmental contamination, lower right. The 9/11 attacks 
produced two primary sources of environmental contamination: 
particulate matter from the dust cloud generated by the 
collapse of the World Trade Center; and, second, the plume of 
combustion byproducts from the fires that burned from three to 
5 months. Here you see the dust cloud.
    In addition, there were and still are several secondary 
sources of contamination. That is, 9/11 exposure may be 
ongoing. These secondary exposure sources include, next one, 
particulates resuspended in contaminated indoor spaces and 
particulates from ongoing demolitions of 9/11 contaminated high 
risk buildings in lower Manhattan.
    World Trade Center dust was dispersed throughout much of 
lower Manhattan and adjacent parts of Brooklyn. It may also 
have been disbursed over a larger geographic area.
    Many of the hundreds of contaminants identified in outdoor 
and indoor air dust and bulk samples are known to be toxic or 
carcinogenic. These include asbestos, polychlorinated 
biphenyls, polycyclic aromatic hydrocarbons, manmade vitreous 
fibers, dioxins, violative organic compounds, crystalline 
silica, pulverized glass shards, highly alkaline concrete dust, 
and lead, mercury, and other heavy metals.
    Here you see EPA, Office of Research and Development plume 
modeling clearing showing and acknowledging the bloom at 
varying concentrations over Brooklyn.
    Despite exhaustive efforts outdoor sampling by Government 
agencies was neither coordinated nor comprehensive, nor 
targeted. In addition, sampling at and around ground zero began 
late and was conducted only on a limited basis. Therefore, our 
knowledge of the nature and scope of 9/11 contamination remains 
limited.
    There has been no comprehensive, systematic investigation 
of indoor spaces even though particulates that infiltrate 
indoor spaces persist over time unless they received targeted 
environmental cleanup. Government activities to assess or 
cleanup indoor contamination have been scientifically flawed.
    Government efforts were also inappropriately limited in 
scope. Geographic areas known to have been impacted such as 
Chinatown and parts of Brooklyn were excluded from testing and 
cleanup, as were all industrial and commercial spaces and 
schools, and Government buildings. Here we see photographs from 
EPA reports documenting from space visible dust on the shore of 
Brooklyn. The black and the yellow dots in the lower right hand 
corner. And, of course, we're concerned not solely about 
visible dust but about invisible dust. The visible dust will 
tend to fall out of the air at shorter distances than the more 
microscopic and less visible particulates which could travel 
longer distances, potentially.
    As a result, the environmental data for lower Manhattan are 
of limited scientific utility and the data for Brooklyn are 
nonexistent. Thus, it is not possible even at this late date to 
characterize the level, composition or geographic scope of 
initial or residual 9/11 derived contamination. Nor is it 
possible to characterize prior exposure or risk or current 
exposure or risk. Nevertheless, there are credible data that 
indicate the possibility that 9/11 derived toxic substances 
were widely distributed: In some cases at levels of concern.
    The satellite photos that you've seen clearly shown the 
combustion plume over much of Brooklyn on 9/11 and on other 
dates. My Flatbush neighborhood, as other people have 
commented, were blanketed with charred documents from the World 
Trade Center. Nevertheless, there are no data by which to 
assess the presence or absence of contaminants.
    A large and increasing number of people who were exposed to 
9/11 contaminates, primarily rescue and recovery workers but 
also area workers and residents, are now suffering serious and 
persistent adverse health outcomes which are extensively 
documented in the scientific literature. Although those working 
on the pile generally experienced the most severe exposures and 
the most severe health impacts, comparable respiratory impacts 
among community residents, students and workers are also well 
documented in the scientific literature.
    Because 9/11 contaminates include numerous carcinogens 
there is concern about late emerging cancers. Whether or when 
these diseases will manifest is unknown, but it is prudent and 
scientifically appropriate to anticipate the possibility.
    Moreover, neither environmental nor occupational health 
regulations were enforced at or around ground zero. This 
failure to implement legally regulated protective measures, 
legally required protective measures is likely to have 
contributed to the high incidents of 9/11 related illness. The 
current EPA sampling plan, which was implemented despite its 
rejection by the EPA WTC Expert Technical Review Panel, repeats 
many of the flaws of the earlier efforts, including the 
exclusion of Brooklyn.
    The current testing program should be replaced with a 
comprehensive scientifically sound effort to identify and 
quantify residual contaminates, if any, in indoor spaces and to 
provide effective environmental cleanup if and where warranted. 
Businesses, schools and Government spaces as well as residences 
must be included.
    Testing should concentrate on indoor spaces closest to 
ground zero and proceed outward, as Congressman Nadler pointed 
out, outward in concentric circles until measurements indicate 
that contaminates do not exceed background levels or health-
based benchmarks. The goal should be to identify and remove 
residual resources, if any, of ongoing or potential exposure.
    Here we see an EPA from an earlier plan that the EPA 
presented to the panel. They proposed sampling of Brooklyn. As 
recommended by the panel, this proposal to sample in Brooklyn 
was withdrawn by EPA.
    A comprehensive approach is also needed to identify, treat 
and tract 9/11 related illness of rescue and recovery workers 
and also of area workers, residents and students.
    It is essential that the Federal Government support and 
adequately fund over the long term the three medical centers of 
excellence: The World Trade Center Medical Monitoring Program 
and its affiliated clinics; the Fire Department of New York 
Medical Program, and; the World Trade Center Environmental 
Health Clinic of Bellevue Hospital. Reportedly, the Federal 
Government may withdraw its support of these medical centers 
and instead require 9/11 health victims to pursue treatment on 
their own in the health care market. This would have dire 
consequences for the thousands of people who have or who may 
develop 9/11 related illnesses, and it would be a grave error 
in public health policy.
    These hospitals and clinic-based centers provide a high 
level of expertise in diagnosing environmentally induced 
symptoms and illnesses and in rendering effective treatment--
and I'm finishing up here--through access to broad 
institutional resources. These could not be duplicated if 9/11 
health victims were forced to rely on a market-based health 
care model. The centers of excellence are also capable, as 
individual health care providers are not, of targeted outreach, 
public health education, long term medical monitoring, 
identification of disease trends and collection and sharing of 
data to inform clinical practice and public health policy.
    Thank you very much for this opportunity to present my 
views.
    [The prepared statement of Mr. Newman follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.022
    
    [GRAPHIC] [TIFF OMITTED] T0872.023
    
    [GRAPHIC] [TIFF OMITTED] T0872.024
    
    [GRAPHIC] [TIFF OMITTED] T0872.025
    
    [GRAPHIC] [TIFF OMITTED] T0872.026
    
    [GRAPHIC] [TIFF OMITTED] T0872.027
    
    [GRAPHIC] [TIFF OMITTED] T0872.028
    
    [GRAPHIC] [TIFF OMITTED] T0872.029
    
    [GRAPHIC] [TIFF OMITTED] T0872.030
    
    Mr. Towns. Thank you very much for your testimony, Mr. 
Newman.
    Mr. Roohan.

                  STATEMENT OF PATRICK ROOHAN

    Mr. Roohan. Thank you. Thank you, Chairman Towns and 
members of the subcommittee to allow me to present the findings 
from our study entitled, ``Asman Medicaid Managed Care: 
Enrollees Residing in New York City Results from a Post-World 
Trade Center Disaster Survey.''
    My name is Patrick Roohan. I'm the director of the Bureau 
of Program Quality, Information and Evaluation in the New York 
State Department of Health.
    Our Bureau's role is to monitor the quality of care and 
also to evaluate programs in Medicaid managed care as well as 
the Medicaid program overall.
    My testimony is a summary of our study, which has been 
published in the Journal of Urban Health on 2005.
    The collapse of the World Trade Center on September 11, 
2001 created a plume of smoke and dust that covered much of 
lower Manhattan before moving east to Brooklyn. The New York 
State Department of Health is charged with administering the 
State's Medicaid program and has oversight responsibility for 
the 18 health plans that provide services to over 1 million 
recipients enrolled in Medicaid Managed Care in New York to 
assess the Asman status of Medicaid Managed Care enrollees who 
may have been exposed the New York State Department of Health 
Office of Managed Care conducted a mail survey among enrolls 
residing in New York City.
    A total of 16,629 enrollees aged 5 to 56 with persistent 
asthma prior to September 11, 2001 were surveyed during the 
summer of 2002. 3,557 completed surveys were available for 
analysis. Administrative health service utilization data from 
the Medicaid Encounter Data System, MEDS, were also used to 
validate and supplement survey responses.
    Multivariant logistic regression models were developed to 
examine factors associated with self reported worsened asthma 
post September 11, 2001, and with emergency department in-
patient hospitalizations related to asthma from September 11, 
2001 through December 31, 2001.
    Forty-five percent of survey respondents reported worsened 
asthma post 9/11. Approximately half of these, 46 percent, 
indicated that their asthma was still bad at the time of the 
survey. Respondents most commonly cited: Dust 63 percent; 
emotional stress 42 percent, and; and cold weather 37 percent 
as the reason for the worsened asthma.
    MEDS data were used to validate self reported change in 
asthma status. Respondents reported worsened asthma post 9/11 
were significantly more likely p less than 0.05 to have at 
least one professional service visit, a specialty visit, an 
emergency department visit and an in-patient hospitalization 
with a diagnoses of asthma. Also they were significantly more 
likely P less than 0.05 to have filled a prescription for 
asthma medication, had a service with a behavioral health 
diagnosis and filled a prescription for a psychoactive 
medication.
    Residents in both lower Manhattan with an adjusted odds 
ratio of 2.28 and western Brooklyn with an adjusted odds ratio 
of 2.4 were associated with self reported worsened asthma 
compared to the rest of New York City. Significant differences 
were also observed by days of weeks in lower Manhattan: One to 
three odds ration of 1.95, 4 more days 2.43. However, only 
residents of western Brooklyn had elevated odds ratios for 
emergency department in-patient hospitalizations with a 
diagnosis of asthma post 9/11. And that adjusted odds ratio is 
1.52.
    Worsened asthma was reported by significant proportion of 
this low income largely minority population and was associated 
with location of residence.
    Results from this study provide guidance to health care 
organizations and the development of plans to ensure that the 
health of persons with asthma during disaster situations.
    Thank you.
    [The prepared statement of Mr. Roohan follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.031
    
    [GRAPHIC] [TIFF OMITTED] T0872.032
    
    [GRAPHIC] [TIFF OMITTED] T0872.033
    
    [GRAPHIC] [TIFF OMITTED] T0872.034
    
    [GRAPHIC] [TIFF OMITTED] T0872.035
    
    [GRAPHIC] [TIFF OMITTED] T0872.036
    
    [GRAPHIC] [TIFF OMITTED] T0872.037
    
    [GRAPHIC] [TIFF OMITTED] T0872.038
    
    [GRAPHIC] [TIFF OMITTED] T0872.039
    
    [GRAPHIC] [TIFF OMITTED] T0872.040
    
    [GRAPHIC] [TIFF OMITTED] T0872.041
    
    [GRAPHIC] [TIFF OMITTED] T0872.042
    
    [GRAPHIC] [TIFF OMITTED] T0872.043
    
    [GRAPHIC] [TIFF OMITTED] T0872.044
    
    [GRAPHIC] [TIFF OMITTED] T0872.045
    
    [GRAPHIC] [TIFF OMITTED] T0872.046
    
    Mr. Towns. Thank you very much.
    Dr. Szema.

                   STATEMENT OF ANTHONY SZEMA

    Dr. Szema. Thank you, Chairman Towns.
    I have a 1-minute video and 5 minutes of written testimony.
    I thank Representatives Nadler and Platts.
    This 1 minute video will show that it is plausible that 
exposure to the inhalation energy from the World Trade Center 
could reasonably lead to a worsening asthma exacerbation.
    [Video shown].
    Dr. Szema. We've been following children with asthma in the 
largest ethically homogeneous neighborhood proximal to the 
World Trade Center since 1997. After September 11, 2001 
serendipity presented us with a control population to study pre 
and post the World Trade Center disaster.
    We had two hypotheses. No. 1: Pediatric asthma patients 
exposed to the World Trade Center disaster may experience 
increased asthma severity. No. 2: Some previously healthy 
children may be newly diagnosed with asthma after September 11, 
2001.
    The study population comprised Chinese American pediatric 
asthma patients who lived in New York City. They all received 
medical care at the Charles B. Wang Community Health Center, 
1.5 miles from the WTC. The closest border of Chinatown to 
ground zero is three blocks.
    Eligible subjects included patients younger than 18 years 
of age as of September 11, 2001 who had established asthma and 
enrolled in an asthma registry by Dr. Debra H. Lynn, chief of 
allergy at the CBWCHC prior to 9/11. All patients included in 
the study were given a diagnosis of asthma by Dr. Lynn, who is 
a pediatric allergist. Patients younger than 6 years of age 
were given a diagnosis of asthma if they had two or more 
episodes of wheezing or coughing within a 12 month period and 
symptoms improved after asthma medication in the clinic. 
Children older than 6 years of age were given a diagnosis of 
asthma if they had wheezing, cough on at least two occasions 
and symptoms and physical signs and peak flow rates improved 
after bronchial dilator therapy.
    We only included subjects who had at least one clinic visit 
for asthma between September 11, 2001 and September 10, 2002, 
and also had at least one clinic visit between September 11, 
2001 and September 10, 2002.
    This was a retrospective chart review. 205 pediatric 
patients with established asthma from the clinic were studied. 
Clinical data obtained for the 12 months before and after 
September 11, 2001.
    Seven physicians trained in internal medicine or pediatrics 
reviewed 319 patient charts from the asthma registry. 205 
patients met the inclusion criteria, which required them to 
have at least nine of ten variables studied.
    We studied: The number of visits to the MD for asthma; 
number of asthma medication prescriptions; use of oral cordic 
steroids; number of weekly doses of rescue inhaler, peak 
expiratory flow rates measured in liters per minute as air 
leaves the lung. A low number means an asthma attack; age, 
height and weight 3 months pre and post 9/11 and sex; doctors 
were blinded to the residential zip code; for PEFR the best 
value of three trials was recorded at each visit. PEFRs were 
obtained from all patients who were able to consistently 
perform the maneuver.
    Demographic characteristics of Chinese American patients 
were as follows: Average age, 8 years; 34 percent female, 66 
percent male; height 48 inches, weight 63 pounds.
    We further characterized patients as those living within 5 
miles of the World Trade Center and those living further away.
    I have two tables which show that these groups were 
appropriately matched. There was no statistical difference 
between the two groups with regard to age, sex, height and 
weight.
    The number of clinic visits for asthma increased from 3.79 
visits in the 12 months prior to 9/11 to 4.69 visits in the 12 
months after 9/11.
    The number of asthma prescriptions per child increased from 
2 to 2.3 during the same period. The number of rescue inhaler 
doses per week and oral steroid uses did not differ.
    I have a map of ground zero. On the left we have zip codes 
of residents of kids with asthma who lived within 5 miles of 
the World Trade Center. In blue are those zip codes, those 
asthmatic children who live greater than 5 miles away, which 
includes Brooklyn.
    The number of clinic visits for children in Region 1 within 
5 miles increased after 9/11 along with the number of asthma 
prescriptions. There are no differences in the number of rescue 
inhaler doses or oral steroid use.
    In Region 2 greater than 5 miles, although the average 
number of clinic visits and asthma prescriptions increased 
after 9/11, these increases were not statistically significant.
    Now, for the entire clinic population we tracked the number 
of children with a diagnosis of asthma. The number of children 
of asthma increased 66 percent and pediatric asthma visits 
increased 48.8 percent.
    I have a bar chart which shows the increase in pediatric 
asthma patients in Chinatown increased from 306 to 510. The 
number of pediatric asthma visits increased from 1,044 to 
1,544. In comparison, a control group children with asthma 
treated in Flushing Queens, 11.9 miles from ground zero, by the 
same physicians in Manhattan using the same standards showed 
children with asthma decreased 10.9 percent and the number of 
pediatric asthma visits decreased 13.6 percent. Mean percent 
predicted peak flow rates decreased below 80 percent of 
predicated in children living within 5 miles of ground zero. 
The decrease lasted for 6 months.
    In summary. Exposure to the World Trade Center disaster led 
to increased asthma severity. Children living within 5 miles of 
ground zero had more asthma clinic visits after September 11, 
2001. These children received more prescriptions for asthma 
medications. The increase in visits for asthmatic children 
living further than 5 miles from ground zero was not percent. 
Mean percent predicated peak expiratory flow rates decreased 
solely for those patients living within 5 miles of ground zero 
after September 11, 2001.
    In conclusion. Asthma severity worsened after September 11, 
2001 in pediatric asthmatic patients living near ground zero. 
Residential proximity to ground zero was predictive of the 
degree of decreased in asthma health.
    I'd like to acknowledge my colleagues which include fellows 
from SUNY-Stony Brook and Dr. Debra Lynn from the Charles B. 
Wang Community Health Center. Our epidemiologist is Dr. Francis 
Mary Maduna from the University of Pittsburgh. And our 
statistician is Dr. Hong Chu Chin from Harvard Medical School.
    Thank you.
    [The prepared statement of Dr. Szema follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.047
    
    [GRAPHIC] [TIFF OMITTED] T0872.048
    
    [GRAPHIC] [TIFF OMITTED] T0872.049
    
    Mr. Towns. Thank you. Thank you very, very much. Thank you.

                  STATEMENT OF SUZANNE MATTEI

    Ms. Mattei. Good day. Thank you for allowing me to testify 
today, Chairman Towns, and members of the panel.
    My name is Suzanne Mattei. I am the New York City executive 
for the Sierra Club, a national environmental group.
    My testimony will describe information that the Sierra Club 
has obtained regarding the extent to which the contamination 
from the World Trade Center disaster travel eastward into the 
borough of Brooklyn and looking at various neighborhoods trying 
to answer the question did that dust become deposited at the 
ground level, did it enter buildings.
    So, thank you.
    You know, obviously when you have a significant release of 
hazardous substances you want an answer to two questions. 
What's in it and where did it go? Neither of these questions 
were answered for the ground zero pollution source.
    We already have discussed the problems with EPA; bad 
equipment, failing to test for the proper parameters, failing 
to test systematically, falling to do proper indoor testing and 
completely ignoring Brooklyn.
    We've already talked about this. The original residential 
program and the current one completely ignored Brooklyn.
    Despite the Inspector General's criticism, despite advocacy 
from residents, I want to particularly acknowledge Gena Orkin 
who is a Brooklyn resident who advocated very vociferously for 
testing in Brooklyn. They just continue to completely ignore 
the borough.
    So what are the information sources about what happened in 
Brooklyn? You've seen the aerial photographs. There were also 
some newspaper accounts where people talked about readable 
papers being deposited in Brooklyn. There was also the 
Inspector General's survey, which was discussed just a little 
bit before. I'll get into the specifics relevant to Brooklyn. 
We did our own informal supplementary survey, and you've heard 
about some of the health studies that have been done.
    The NASA aerial photographs showed it moving in a 
southeasterly direction across Manhattan. You already saw that 
picture.
    The Newsday article described seeing people seeing readable 
addresses, readable papers in Brooklyn Heights, Carroll Gardens 
and also Red Hook.
    In 2003, the EPA Inspector General did conduct that survey 
of residents. The interesting thing is that they did not limit 
their survey to Manhattan residents. They did include people in 
other boroughs. There were about 204 residents from Brooklyn 
who responded. One of the questions was whether or not the 
resident was aware of their own home having been invaded by 
World Trade Center contamination. It was really quite stark 
that about a quarter of the 200 some residents who responded 
from Brooklyn said yes, that there was either visible dust or 
debris in their homes. The interesting thing is that 
information came out and then nothing happened. Nobody did any 
further testing. EPA didn't take any further action.
    So the three most significant reporting neighborhoods in 
terms of how many reported and the percentage that said their 
homes had been contaminated where Carroll Gardens, Cobble Hill, 
Brooklyn Heights Cobble Hill. They did it by zip code. So we 
had to look at what the neighborhoods were, and Park Slope.
    So the Sierra Club New York City Group didn't have any 
particular funding to look at this. But just decided well we 
want to see if this was just a fluke. Did people really see 
dust in their homes and in what neighborhoods did they see it. 
And so we just did it in a very sloppy way. We set up card 
tables outside of grocery stores. And when people came 
shopping, we asked them where they lived and did they remember 
what they saw in their neighborhoods or in their homes at the 
time of September 11, 2001.
    I got to tell you, people's memories of that day are 
crystal clear. It's like do you remember where you were when 
you learned that President Kennedy was shot. It is that kind of 
clarity. They remember everything about that day.
    So we focused on three highest reporting neighborhoods in 
the Inspector General's survey, and then based on the newspaper 
accounts about Red Hook, we went into Red Hook as well.
    We got a little bit of information from other boroughs just 
because people started emailing our survey around. So I will 
talk about a little bit of information from other neighborhoods 
as well. But Brooklyn Heights, people who saw dust in their 
neighborhoods, 67 percent. It's a small survey. But it was 
really quite telling.
    A lot in Brooklyn Heights. A lot in Cobble Hill. Red Hook, 
a smaller amount but still really very significant, almost a 
third of the people. And in Park Slope a very high percentage 
of the people who responded said yes, we saw dust in our 
neighborhood.
    And then we went to the next question, which was did you 
smell odors inside your home or see World Trade Center dust 
inside your home. And, again, the numbers were really pretty 
high. The percentages were pretty high. More than half in 
Brooklyn Heights and Cobble Hill, about a third again in Red 
Hook and about a quarter in Park Slope.
    You may remember that September 11th was a stunningly 
beautiful day. The air was really clear and beautiful. It was 
the first really nice day after a string of bad weather. A lot 
of people had their windows open, and that definitely put them 
at greater risk of contamination. Seventy percent of the people 
who saw or smelled 9/11 pollution in their homes had their 
windows open that day.
    Now it is open to recognize that even with windows closed 
you could still have infiltration. It is also important to 
recognize that you did not have to see the dust for the dust to 
be there. You could have very fine, essentially invisible dust 
in your home or dust that you would not even notice. We know 
that people in Manhattan who did not have visible dust when 
they had chemical analysis with dust wipe tests, they found the 
kinds of heavy metals and other materials that were associated 
with World Trade Center dust contamination.
    So what we are looking at is what people saw. We did not 
have people to go in and do scientific tests. This is not 
perfect. And probably a lot of people who said I did not see 
anything or smell anything, may still have had contamination in 
their home.
    A lot of reports of smell in Dumbo, Williamsburgh, 
Greenpoint, and Fort Green, we did not get much in the line of 
dust reports from there. Although today we just heard from the 
Deputy Borough President that she saw dust in her Fort Green 
home. So these areas need to be investigated.
    Areas from which we received only a few surveys, but they 
indicated some neighborhood contamination that really should be 
investigated further are listed up here. Downtown Brooklyn, 
Sunset Park, Ocean Parkway. Sheepshead Bay, which Congressman 
Weiner mentioned. We had one person who mentioned that she had 
completely painted her steps, her front steps and her railing. 
And when she came home that evening they were covered this sort 
of grayish dust.
    So what we have here are colored markings for the areas 
where the red square indicate where we had a significant amount 
of surveys--well, you know, more than 10 surveys and then we 
have in orange the areas where we think ought to be further 
investigated where we got a fewer number of surveys.
    And this is not scientific. I want to emphasize. This is 
only preliminary information designed to try to spur people to 
do more. But it sure does follow the dust cloud. So I do not 
think we are too far off in identifying where the worst 
contamination was. It really looks as though central and 
southern Brooklyn were hit harder than the northern parts of 
Brooklyn. And a lot of neighborhoods were contaminated.
    You know, 5 out of 10 people that we talked to in Coney 
Island saw dust. So it really traveled.
    The conclusion is really the dust cloud did not just go 
over Brooklyn, it went through Brooklyn. And EPA really must 
conduct a proper testing program, and this program must include 
Brooklyn.
    [The prepared statement of Ms. Mattei follows:]

    [GRAPHIC] [TIFF OMITTED] T0872.050
    
    [GRAPHIC] [TIFF OMITTED] T0872.051
    
    [GRAPHIC] [TIFF OMITTED] T0872.052
    
    [GRAPHIC] [TIFF OMITTED] T0872.053
    
    [GRAPHIC] [TIFF OMITTED] T0872.054
    
    [GRAPHIC] [TIFF OMITTED] T0872.055
    
    Mr. Towns. Thank you very much, Ms. Mattei.
    I mean to do all of that without being funded, I mean I 
just can imagine what you had been able to do if you had funds 
to do it. I think that is a marvelous job.
    I want to thank you for your testimony.
    Now I would like to move into the question period. Let me 
begin with you, Mr. Chan. During your tenure to your knowledge 
did the Office of the IG experience any direct or indirect 
pressure from any sources in the administration to soften its 
evaluation of EPA's conduct or any work concerning the testing 
and cleanup of 9/11? Do you know of any?
    Mr. Chan. I don't have any evidence like that personally. 
One of the great things about working for the Inspector 
General's Office is that I know whatever evidence we gathered. 
However they wish to change it, the evidence will be there. So 
every single report that I have done have been through FOIA 
have been exposed. So all the documents are there. So in that 
sense I never worry about it. I do not feel that pressure at 
all in my position.
    Mr. Towns. You do not feel the pressure?
    Mr. Chan. No, sir.
    Mr. Towns. All right. Let me go just right down the line on 
a very simple question, but I think it is a very important 
question. Let me just go right down the line. I will probably 
start with you on this side.
    Is there scientific evidence of health problems and 
contamination in Brooklyn or any other boroughs, scientific?
    Let us go right down the line.
    Ms. Mattei. Well, I think you have heard at this table the 
best information that those of us who were called to this 
hearing could pull together. I think that Dr. Szema's study is 
scientific evidence. I think that the health officials study is 
scientific evidence. But what they are is evidence, they are an 
indication of a problem. But what our Government failed to do 
was followup and do the comprehensive testing that is required.
    Dr. Szema. I'm going to show you a slide which shows zip 
codes of children with asthma who were in the hot zone or the 
red zone within 5 miles of the World Trade Center who had 
worsened asthma.
    Keep in mind, however, that even though the numbers were 
not statistically significant for children who lived outside of 
the red zone, the numbers were also increased. And we were 
limited by sample size, even though it was statistically 
significant. But you will see that a variety of zip codes in 
Brooklyn had worsened asthma.
    So the answer is, yes, that there is scientific evidence 
which shows that children who lived in parts of Brooklyn were 
worse after 9/11.
    Mr. Towns. Thank you.
    Mr. Roohan. Our studies showed that were elevated persons 
with asthma where their asthma worsened in Brooklyn. Again, 
similar to the study in Chinatown, our sample size was small 
but still statistically significant. So when I presented the 
results over twice as likely to have significant worse asthma, 
two and a half times worse asthma, compared to the rest of New 
York City.
    Mr. Towns. So the answer is yes?
    Mr. Roohan. Yes.
    Mr. Towns. Thank you.
    Mr. Newman. Well, I have a two part answer to that 
question.
    First, we have EPA photos, one of which I projected earlier 
that clearly show that visible particulate matter was dispersed 
and deposited, at least on the northwestern edges of Brooklyn. 
And again, as I mentioned earlier, we have a much higher level 
of concern for the particulate matter that we don't see. So 
that the presence of visible particulates is an indication that 
there are microscopic invisible particulates that have the 
potential to be present, and also to travel further.
    Second, we have the photographs and the plume dispersion 
model from the Office of Research and Development at EPA. So we 
have well documented indications that there's a high 
possibility for contamination in Brooklyn. What we do not have 
is data. And, you know, data does not fall from the sky like 
particulates do. We do not have data because data is a result 
of investigation. Essentially there has been no investigation, 
there has been no site characterization, there has been no 
effort by EPA or any other Government agency to accumulate that 
data and assess it.
    So on the one hand we have an absence of data, on the other 
hand, the absence of data is not indicative and cannot be used 
to indicate safety. We just do not have the data to indicate 
either safety or risk.
    Finally, I would like to note two things. No. 1, that the 
EPA World Trade Center Expert Technical Review Panel strongly 
recommended that sampling be done in Brooklyn, and that 
recommendation was not accepted by EPA.
    Second of all, another reason for the absence of data is 
the Centers of Excellence, the medical programs for which 
people who are symptomatic or concerned about 9/11 exposure and 
related health efforts until very recently with the opening of 
the Bellevue Clinic on January 1st of this year, Brooklyn 
residents, Brooklyn workers unless they worked at ground zero 
were not eligible for those programs, and therefore there is no 
data available for people from Brooklyn.
    Mr. Towns. All right. So the answer is a yes?
    Mr. Newman. The answer to that is the data that we have 
indicate a problem, but we have very little data and we need a 
lot more data in order to find out what we are actually dealing 
with, yes.
    Mr. Towns. OK. Thank you.
    Mr. Gudaitis.
    Mr. Gudaitis. Of the client we have in order for them to 
make a successful application they have to have medical 
documentation of their illness. So in our case the answer would 
be yes as well.
    Mr. Chan. My answer is that clearly there are indications 
of that, but I would answer in a different way. My answer to 
you is that I don't think that all the debris can be healthy to 
me.
    Mr. Towns. I did not hear the answer.
    Mr. Chan. I do not think the debris is healthy to me.
    Mr. Towns. Yes.
    Mr. Chan. So that is the beginning.
    I think EPA with its authority with concerns in terms of 
protecting the human health as well as environment, it is their 
job to determine if, in fact, what is released in the 
environment could be harmful to the environment and the health 
of its citizens.
    Mr. Towns. Right.
    Mr. Chan. I do not think they have done their job.
    Mr. Towns. Right. Thank you.
    Congressman Platts from the great State of Pennsylvania.
    Mr. Platts. Thank you, Mr. Chairman. And our colleague, 
Representative Fossella could not be with us today, but I know 
he has asked permission, unanimous consent to submit a written 
statement for the record.
    Mr. Towns. Without object, so ordered.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Newman, I want to followup on your testimony and your 
service on the Expert Technical Review Panel. First, can you 
give me a little background of the makeup of the panel. You 
state local, you know Federal officials. Who all were involved?
    Mr. Newman. The EPA Expert Technical Review Panel was an 
appointed panel. It was an unusual configuration. It initially 
consisted, I believe, of seven representatives of Government 
agencies such as EPA, FEMA, OSHA, New York City Department of 
Health, etc., and seven nongovernmental experts, of whom I was 
one.
    The panel was charged broadly speaking with three tasks. 
One was to characterize any remaining exposure and risks, 
second was to identify unmet public health needs, and the third 
was to recommend any steps to further minimize the risks 
associated with the aftermath of the World Trade Center 
attacks.
    Mr. Platts. And that panel met, my understanding, about a 
dozen times in over about a 2-year period and issued a report 
in late 2005.
    Mr. Newman. The panel did not issue a report.
    Mr. Platts. OK. The report referenced, Mr. Chan, I 
believe--OK. The objection I guess----
    Mr. Newman. I think you're probably referring to the 
Inspector General's report.
    Mr. Platts. OK.
    Mr. Newman. No. EPA subsequent to the dismissal of the 
panel prior to the expiration of its term went ahead and 
implemented, I believe, it is in December 2006, a new sampling 
program which is currently underway. That sampling program was 
rejected by the panel. Our rejection and our concerns were 
ignored in EPA, they went ahead an issued a new program.
    Mr. Platts. So it was not a written report rejecting that? 
It was an expression?
    Mr. Newman. No. No. The panel was an advisory body. It was 
plagued by a number of procedural concerns, one of which was a 
lack of clear process for memorializing the panel's input. So 
there was no final report issued by the panel.
    Mr. Platts. But the current EPA plan was one that the panel 
looked at and rejected as again insufficient?
    Mr. Newman. Correct.
    Mr. Platts. Are you aware of the rationale of the EPA for 
appointing you and the others to the panel but then not 
adhering to the expert testimony and knowledge? Was there any 
formal response from EPA why they were not following the lead 
of the panel?
    Mr. Newman. No.
    Mr. Platts. No?
    Mr. Chan, you left EPA late 2005, correct?
    Mr. Chan. Yes, sir.
    Mr. Platts. Are you aware of any in your work in the 
Inspector General's Office of any EPA response internally to 
the panel and how it reviewed it and the seriousness with which 
EPA took the findings of the panel?
    Mr. Chan. The findings, our recommendation and their 
response are in the report and they accept a lot of our 
recommendations and the ideas looking into the indoor air, I 
believe, that is something that they initiated together with, I 
believe, Senator Clinton and Senator Lieberman pushed to do 
that.
    We were in fact hopeful that they would follow through on 
some of these recommendations. We are so disappointed in terms 
of what happened since then.
    Mr. Platts. OK. But thus far they have not really followed 
the recommendations you made?
    Mr. Chan. I can give you a short answer and a long answer. 
The answer is no. The short one, yes.
    Mr. Platts. My understanding was that in February 2006 that 
there was a report issued by the panel, by your panel? No.
    Mr. Newman. No.
    Mr. Platts. OK. Give me one moment here.
    Mr. Chan, one of the things of learning lessons here is my 
understanding in the initial months following 9/11 that the 
city of New York took the lead not EPA. Are you aware or can 
you give us any information on how that decision came to be 
between the city and the Federal Government? And then what 
spurred in early 2002 the decision the EPA would take over the 
effort?
    Mr. Chan. This may be difficult for me to answer because it 
appears to be still a legal issue.
    I believe that city itself under the circumstance can, in 
fact, decide to do the cleanup themselves. You know, the EPA's 
obligation is to make sure that it is done. And I believe also 
that the event that occurred afterwards that there were a lot 
of complaints about the effort. And if I recall correctly 
around February 2002 EPA stepped in and decided to begin the 
cleanup for the indoor air.
    Mr. Platts. Mr. Chairman, if I could squeeze in a quick 
followup? Real quick.
    Mr. Towns. Sure.
    Mr. Platts. To all the panelists, are any of you aware of 
the interaction between the city and EPA and the initial 
decision for the city to take the lead and then EPA in early 
2002 saying, no, we are going to take the lead? And even if you 
do not have that knowledge, a recommendation for learning from 
this experience should it be mandatory of EPA coming in and 
being more the lead entity from the get-go and not having that 
discretion at the local level?
    Mr. Newman.
    Mr. Newman. Yes. My understanding is that the EPA initially 
denied that it had legal responsibility to assessing or 
addressing indoor environmental contamination, and thus it 
defaulted to New York City agencies. And in turn, New York City 
agencies essentially in the real world defaulted to building 
owners and employers whose efforts, you know, ran the gambit 
from testing an appropriate cleanup to not, depending upon 
their level of technical expertise depending on their financial 
capabilities. And most importantly, depending upon guidance 
from the Government. And as we know, guidance from the 
Government, you know, tended to indicate or allege that there 
was no problem and therefore it was a disinsentive to clean up.
    Mr. Platts. Right. And opinion as far as whether that 
should be more clear in the law and perhaps mandatory as far as 
EPA versus the local?
    Mr. Newman. Well, I think it's fundamentally clear that it 
was and is EPA's responsibility period to assume--EPA 
fundamentally has clear legal responsibility for environmental 
and public health from contamination.
    Mr. Platts. Yes?
    Ms. Mattei. Right. I would just add to that. And I think 
that some of this was defined very clearly for everyone by 
Congressman Nadler's white paper that really looked into the 
issue of responsibility. But fundamentally the Environmental 
Protection Agency has the authority to respond to any 
significant release of a hazardous substance. They can do that 
no matter what the cause of that hazardous substance release. 
And that is under what is known as the Super Fund Law. They 
have that authority. They do not have to declare the site a 
Super Fund site to get in there and do the analysis. They can 
go indoor as well as outdoor. That statute does not 
differentiate.
    Also because this was a terrorist attack, there was a 
Presidential Directive in place that specifically mandated that 
the Environmental Protection Agency should take action.
    So actually the law was in place and the agency clearly had 
the responsibility and the duty, but it chose not to do so. So 
we had a major failure in implementation of an existing law. It 
was an administrative failure.
    Mr. Platts. Right. So not that the law is flawed, but it 
was not properly implemented?
    Ms. Mattei. That's right. That's correct. It was 
irresponsible behavior on the agency's part.
    Mr. Platts. OK. Thank you, Mr. Chairman.
    Mr. Towns. Thank you. Thank you very much.
    And I will now yield to Congressman Murphy of Connecticut.
    Mr. Murphy. Thank you, Mr. Chairman.
    A month or so ago when we had a committee hearing on this 
subject in Washington, DC, we had Dr. Howard and Dr. Agwunobi 
before us. And I left there at least with some fear that their 
strategy was to study this to death and to basically require 
going forward, that each person potentially present their own 
personal white paper to prove that their illness was a direct 
result of their exposure to the contaminates in and around the 
site. So I want to talk for a second or ask some questions for 
a moment on the limits of data going forward and to try to get 
a better understanding of what our expectations are going to be 
from data that we may be able to receive.
    Maybe I'll direct the first question to Dr. Szema as the 
one doctor I believe on the panel.
    Let us take your specific study on asthma. What are the 
expectations going forward on this case study, at the very 
least, that we would have any ability going forward to examine 
which patients had an increased level of asthma or an increased 
exposure to asthma due to their exposure to contaminates 
through September 11th or to what extent is this simply very 
important aggregate data that we may not be able to distill 
down to determine the actual cause of the increased level of 
asthma?
    Dr. Szema. The clinic population, the population in 
Chinatown is relatively stable. So I would say that since this 
is a good yard stick or gold standard, I would want to resurvey 
and restudy it on a more broader scale and move out in 
concentric circles.
    We have already made a computerized questionnaire similar 
to the World Trade Center Mount Sinai questionnaire and 
standardized statistical instruments, like the St. George's 
translated in Chinese and ready to go on the Internet. But I am 
not currently funded to do so. My current NIH funding is to 
study the genetic causes of asthma in mice. And, you know, we 
are developing a new drug to treat asthma.
    So I think if you study a controlled population, then you 
will be able to compare other populations further out. An 
analogy is if Osama Bin Laden decides to drop a nuclear weapon 
on a location and you wanted to see the health efforts, you 
would start from that location and move out.
    Mr. Murphy. I guess my question is more relevant to an 
individual case rather than as just a statistical analysis. 
When you are dealing with an individual 8 year old who comes in 
with asthma or an increased level of asthma they did not have 
before, what is our ability to tell whether that increased 
level of asthma is due to the contaminates?
    Dr. Szema. Yes. One thing that we would like to do but we 
have not done was to skin prick tests all over these kids for 
dust mite antigen. There are at least two types. As well as to 
rat and mice. Because after the World Trade Center collapse 
there were lots of case reports of rodents running around the 
city. They came because of the excavation, etc.
    So I think your asthma can be worse as a result of 
irritation injury, as a result of inhalation lung injury, 
allergic sensitization to antigens. Air pollution is known to 
increase asthma attacks and there is something called endotoxin 
in the air which associated with increased particulate matter 
in the air as well as air pollution.
    So these are all things we can measure. You can skin test 
them to these things. You can measure air quality. You can go 
into the kid's house and see if there's any residual things 
left.
    None of these kids got complete pulmonary function testing 
or cardiopulmonary exercise testing. So the peak flow is just a 
little tube you blow in in the office when you are stationary 
at rest. It does not say whether you can rest around. So, you 
know, we did not put any of these kids on a treadmill, etc.
    Mr. Murphy. Let me ask the more general question to the 
panel, which is that is there some fear that we are going to be 
set up for a fall here? That individual citizens are going to 
be asked to present far more information that is available 
here. If what we are going to rely on in the end is maybe more 
aggregate data about particular exposure by neighborhood or by 
geographical area, how do you then go about treating those 
populations or dispersing funds, treatment dollars, etc?
    Mr. Newman.
    Mr. Newman. I think you are absolutely correct that it is 
difficult to prove with confidence any individual--the 
association of health symptoms or health condition, any 
particular individual with a presumed exposure, especially in 
the absence of data. However, in the aggregate data as you 
mentioned, the scientific evidence is quite clear that we have 
a number of clearly distinct geographic and what I call 
exposure populations that have been adversely impacted by 9/11 
related exposures. I think that there is virtually or actually 
no scientific doubt about that.
    So what is needed are programs in the aggregate and not 
programs aimed at the individual. We have the beginnings of 
those programs with an excellent track record. Those are the 
Centers of Excellence to which I referred in my comments. Those 
programs need to be supported. They need to be funded. They 
need to be expanded and they need to continue over the long 
term so that they can survive.
    The eligibility criteria for people to get access to those 
programs need to be expanded to include people who are effected 
or potentially effected by 9/11 so that they can be screened in 
or screened out based on their symptoms and based on their 
exposure history and the development or absence of symptoms.
    Mr. Murphy. Thank you.
    Thank you, Mr. Chairman.
    Mr. Towns. Thank you very much, Congressman Murphy.
    Congressman Nadler from Manhattan and Brooklyn.
    Mr. Nadler. Thank you.
    Let me first compliment Mr. Chan for being one of the first 
EPA or former EPA persons willing to speak out honestly on this 
subject.
    Now, you say in your testimony--first of all, the Inspector 
General's report, as I said, and it has been referred to before 
recommended that we do inspections of several hundred indoor 
spaces going out in concentric circles from the World Trade 
Center to find out where the contamination exists and where the 
cleanup is necessary. Do you concur that is still necessary to 
be done?
    Mr. Chan. I would say yes, if I answer 2 or 3 years ago. As 
time moves on the more study I do not think is needed to 
determine whether in fact the plume reach the citizens around 
here or around----
    Mr. Nadler. It's becoming more clear that it did you mean?
    Mr. Chan. No. It is becoming more that, you know, the 
longer you wait the less evidence you are going to find by 
definition. And because what happened is that it is going to be 
in the body of individuals rather than--you know, it is all 
like getting the dirty. After a while you can find it in the 
fish, as in mercury.
    Mr. Nadler. OK.
    Mr. Chan. So why not look in the fish rather than the 
water.
    Mr. Nadler. Thank you. Second of all, you state in your 
testimony that EPA's actions to evaluate, mitigate and control 
risk to human health from exposure to indoor air pollutants in 
the WTC area were consistent with applicable statutes and 
regulations which do not obligate EPA to respond to a given 
emergency allowing for local agencies to lead a response. And 
New York City in fact exercised the lead role.
    Ms. Mattei says in her testimony when a significant release 
of hazardous substance occurred, the EPA has authority to 
respond under CERCLA and with regard to the September 11th 
attack, EPA had a mandatory duty under Presidential Decision 
Directive 62 to conduct a cleanup. I believe that Marlanne 
Horinko, Deputy Administrator of EPA, admitted under oath 
before the Senate in 2004, that under CERCLA and under 
Presidential Directive 62, EPA had a mandatory duty to be the 
lead agency. Is that your understanding?
    Mr. Chan. Yes, but I don't believe my comment is different 
from what was just said. In fact, I think under CERCLA EPA does 
have the responsibility to make sure that. But in this case 
here where the New York City decided they wanted to make that 
it happens.
    Mr. Nadler. But let me ask you the key question.
    Mr. Chan. OK.
    Mr. Nadler. If EPA has the responsibility, it can delegate 
that responsibility to some other responsible body to do it.
    Mr. Chan. Exactly.
    Mr. Nadler, But if it clear that other body is not doing 
it, is there EPA thereby OK to wash its hands of it?
    Mr. Chan. No. They should followup and take over, as they 
have done. And there is a precedents for that. If you look at 
Libby, MT where in fact the externals asbestos went into 
buildings and whereby EPA is responsible.
    Mr. Nadler. In Libby, MT the Administrator said that it 
would be immoral to ask homeowners to bear the expense of 
cleaning up their homes. In New York that was what was done.
    Mr. Newman, you state in your testimony that neither 
environmental or occupational health regulations were enforced 
at or around ground zero. The failure to ensure that these 
protective and legally required measures were utilized is 
likely to have contributed to the high incidence of 9/11 
related illness that we are seeing today and that we may see in 
the future.
    Who had legal authority to decide not to enforce the 
environmental and occupational health regulations?
    Mr. Newman. To take your question literally, I do not think 
anybody had legal authority to decide to or not to enforce 
them.
    Mr. Nadler. Nobody had legal authority? Who to your 
knowledge decided not to enforce the occupational health and 
safety laws?
    Mr. Newman. Obviously the regulatory agency is--I mean the 
enforcement agency is the Occupational Safety and Health 
Administration and New York State Department of Labor of Public 
Employee Safety and Health, and the applicable regulations?
    Mr. Nadler. And the city? And the city, too?
    Mr. Newman. The city does not enforce those regulations. 
The city as an employer is legally required to comply with the 
requirements of those regulations. The enforcement body would 
be PESH and OSHA.
    Mr. Nadler. But the city didn't comply with those 
regulations?
    Mr. Newman. In my opinion, absolutely not.
    Mr. Nadler. So all three levels of government were at 
fault?
    Mr. Newman. Yes.
    Mr. Nadler. And is it safe to say that probably thousands 
of people are sick today and will get sick because all three 
levels of government did not enforce or apply the law?
    Mr. Newman. I think that's pretty clear.
    Mr. Nadler. That is pretty clear?
    Now, there was as you may recall, a New York City 
Department of Environmental--what is it? New York City EDC--oh, 
DEP. There was a New York City DEP memo that I recall quoted in 
the Inspector General's report saying we should enforce the 
OSHA laws. And someone overruled that. Someone decided not to. 
And I recall there is also a letter from Mayor Giuliani quoted 
as an appendix to the--either quoted as an appendix to the 
Inspector General's report or listed in the EPA response to the 
Inspector General report saying do not come in, we will handle 
it. Do you remember that letter?
    Mr. Newman. I do.
    Mr. Nadler. And that is what it said?
    Mr. Newman. Generally.
    Mr. Nadler. OK. Let me ask you one other thing. If we do 
not--and as I've said, I have always maintained that there are 
two coverups. The first coverup was the fact that people who 
were exposed to an acute toxins that day and the days following 
because they were caught in the plume or because they were 
first responders, they worked at ground zero and they didn't 
wear respiratory equipment, their health was compromised. That 
coverup is pretty well unraveled and people are now admitting 
that happened. Some people are saying we should deal with it, 
not everybody.
    But the second coverup is the impact on residents in 
Manhattan and Chinatown and Brooklyn, Queens, Jersey City, for 
all we know, were indoor spaces were contaminated and never 
properly inspected and cleaned up. And as you said before, the 
default was the building owners. I remember there was a U.S. 
Senate hearing in January 2002, it was the New York City 
department of something that while we sent notices to 1,800 
building owners, owners of 1,800 buildings telling them that 
they had to clean up the outdoor spaces and the common spaces 
of the buildings, not the individual spaces. It was asked well 
what was the agency of enforcement. Self certification, and how 
many certifications did you get back? Three hundred, and what 
did you do about the other 1,500 buildings? Nothing. Not to 
mention that the individual spaces were not dealt with.
    If nothing is done, is it accurate to think that people who 
move into an apartment or start working in an office next year 
or 5 years from now are still going to be poisoned and come 
down with cancers eventually, or some proportion of them?
    Mr. Newman. If you have indoor particulate manner, you 
know, that have toxic properties, the likelihood is that some 
of these particulates can persist for extremely long periods of 
time unless they're subjected to a targeted and technical 
environmental remediation.
    Mr. Nadler. So the answer is yes?
    Mr. Newman. Yes.
    Mr. Nadler. Which means that one has to say that as far as 
we know many buildings in the entire metropolitan area may be 
unsafe to live and work in in that sense?
    Mr. Newman. Well, the operative word is ``may.'' From my 
point of view, you know, it is entirely appropriate and 
legitimate to have a level of concern about that contamination 
that might remain indoors. In terms of our knowledge based on 
data we do not have any knowledge, we do not have any data 
because the testing has never been done. So it is entirely 
appropriate to do the testing now and find out where we are at.
    Mr. Nadler. And in fact essential to do the testing in 
order to correct it?
    Mr. Newman. Correct.
    Mr. Nadler. Thank you.
    Mr. Towns. Thank you very much, Congressman Nadler.
    Let me just before we close, you know I can't close without 
asking this question, Mr. Gudaitis, you know the fact that we 
have all these people that are ill, more people that might 
become ill that we are cutting case managed services. I mean, 
that to me is the most ridiculous thing I think I have heard. I 
mean, how could we explain that if there is any kind of 
commitment or dedication on our part that we would cut case 
services? I mean, there will be people that is going to get 
sick in the future and all that, and the service will not be 
there for them. How could that happen?
    Mr. Gudaitis. That's a good question, sir.
    You know, at the present time there is only one 
organization funding case management in New York City, and that 
is the American Red Cross Liberty Fund, and we are 
administering that grant, but it ends in 2007. And after that 
there will be no funding for community-based case management.
    And at the present time we know that we have about 60 
percent of the clients coming out of just one of the Centers of 
Excellence needing case management services, and those numbers 
are only increasing. But the money, as far as any of us know, 
has run out. So unless coordinated case management assistance 
and case management is added to one of the things that we are 
looking for the Federal Government to fund along with the 
Centers for Excellence, their needs will only be half met in 
the medical monitoring and treatment programs.
    Mr. Towns. Right. Let me, Mr. Chan, I am coming at this 
question another way. I went after it one way with you and I am 
going to come another way.
    Both you and your former supervisor, Nikki Tinsley, are no 
longer working at the Office of the Inspector General for the 
EPA. For years the Inspector General's Office of the EPA 
produced quality and impartial reviews of EPA's actions. Has 
there been a culture change in the IG's Office in the EPA? In 
other words, you know where I am trying to go.
    Mr. Chan. Let me say that I worked for EPA for 5 years and 
I had great hope in terms of working and helping the citizens 
in terms of the environment and helping out. So the fact that I 
left the agency I think suggests how disappointed I am in terms 
of what I have achieved. I am not very happy with what could be 
done given the fact that the Inspector General's Act gave us, 
you know, independence as well as an ability to voice our views 
and so on.
    So I must admit to you, and I guess the first time in 
public, even my wife does not know that, that I left with a 
heavy heart. I am sorry that, you know, that there are a lot of 
other issues, environmental issues that I find very difficult 
to see how we are going with this. So it is a difficult thing 
because I can talk to you about new source review, I can talk 
to you about mercury and the effect on children, I can talk to 
you about the coal fired stuff, and case after case I find 
that, you know, somehow I am on the wrong side of the issue.
    But I am happy I was there because it gave me tremendous 
insight as to how Government works. Having worked for the 
General Accounting Office from the congressional side or 
legislative side I certainly learn a lot in terms of working 
for the executive side.
    Mr. Towns. Thank you. Thank you very much.
    I really appreciate your coming to testify. I think that 
Congressman Nadler indicated early on, you know, we really 
appreciate it because there has been a silence, you know, and 
for you to come and speak out, I think that to me is very, very 
important.
    Any other comments that any other Members might have?
    Mr. Platts. Mr. Chairman. One, I do want to thank all of 
the witnesses again for their testimony, but especially for 
their reference on behalf of all the citizens of New York.
    Also, I would like to ask unanimous consent that Mr. Shays 
be allowed to submit a written statement for the record.
    Mr. Towns. Without objection, so ordered.
    Mr. Platts. Thank you.
    Mr. Towns. Yes.
    You have a comment that you wanted to make?
    Dr. Szema. I just want to comment that our research is 
dead. We published this paper in 2004.
    Mr. Platts. Dead did you say?
    Dr. Szema. Dead, D-E-A-D, dead. We did it with no money. I 
had our fellows and students do it. We have no money now. The 
cost of actually funding this type of research is actually less 
than that of the long term health effects because if there are 
going to be kids getting asbestosis or bronchial genetic 
carcinoma in the next 20 years, the health effects are going to 
be much more expensive, as Mr. Roohan has even suggested.
    So I think to fund a unique pediatric population, 
especially this vulnerable population with preexisting disease 
is very important. I cannot emphasize that enough. Because even 
other investigators like Dr. David Purzone who has come before 
this committee before from the Fire Department has shown that 
in the past 5 years previously healthy firefighters who do not 
have asthma, who are big strapping firefighters have lost lung 
function. They have measurable declines in lung function 5 
years out from the World Trade Center disaster based on the 
number of hours they put in ground zero. And these are people 
who do not even live in the area. These are workers, and to not 
study the residents is really a crime.
    Mr. Towns. Ms. Mattei, yes.
    Ms. Mattei. Yes. I want to imagine yourself in a home in an 
effected area. A home in which the dust did infiltrate the 
dwelling. There's no World Trade Center dust left on the 
kitchen table. That table has been washed plenty of times, 
thoroughly clean. You are not going to find World Trade Center 
dust on the kitchen table. But what about the carpet?
    We know that asbestos fibers and lead can go right through 
an ordinary vacuum cleaner's bag. It goes right through and 
settles right back down on that carpet. If it's professionally 
cleaned the asbestos and the lead will still be there. And that 
is the concern that I have.
    I am more concerned for young children, toddlers who roll 
around on carpets, bounce around on soft furniture and get dust 
on their fingers and then put their fingers in their mouths. In 
my view these are the people are most vulnerable to the indoor 
contamination.
    I just want to point out, you know, I know a lot of time 
has passed, but we supposedly did a great job scouring the area 
to recapture and try to identify the human remains. What are 
still finding now 5 years later? We are finding bone fragments, 
not only onsite but offsite. If the bones are still there, why 
would we assume that the asbestos and lead are not.
    Mr. Nadler. Thank you. Ms. Mattei, I am glad you brought 
that up because you reminded me of something I wanted to ask 
earlier.
    New York City Department of Health shortly after 9/11 put 
on its website, and it remained there for years and may still 
be there as far as I know, that if you returned to your 
apartment and you find World Trade Center dust, you should 
clean it up with a wet mop and a wet rag. What do you think of 
this advice as to its safety and its legality?
    Ms. Mattei. Completely irresponsible, and the Department of 
Health knows better. They have very detailed regulations just 
for lead dust. Their Part 171 regulations for cleaning up lead 
dust which requires professional cleaning, HVAC vacuuming. None 
of this nonsense of wet mop and wet rag. That was horrendous 
advice. What was even more horrendous is that EPA knew about 
this advice and actually advocated and referred people to 
follow that advice.
    Mr. Nadler. People who followed that advice, correct me if 
I am wrong: No. 1, if they are not professionally trained and 
if they are not wearing proper equipment, protective suits when 
they do it, are likely to inhale some of those fibers when they 
correct it?
    Ms. Mattei. Definitely at risk for exposure, yes.
    Mr. Nadler. And are likely to leave a lot of that in the 
carpets, the porous wood surfaces and so forth?
    Ms. Mattei. It would not be a thorough cleaning. Yes, that 
is a concern.
    Mr. Nadler. Thank you.
    Mr. Towns. Thank you. Thank you very much.
    Let me thank all the witnesses for your testimony. I really 
appreciate hearing from you, and to my colleagues also for 
their participation. And to say to you that based on the 
information that we received from you that we will working 
together on a legislative fix. This is a serious problem. This 
is the wealthiest country in the world, and now if it is the 
wealthiest country in the world behaving like this, I mean this 
just does not make a lot of sense. So I think that the Federal 
Government has to step up to the plate and begin to take some 
action.
    So we will take the information that you have given us and 
we will continue to work on it to see if we cannot bring about 
a solution to this problem.
    Thank you so much for your testimony.
    And this hearing is adjourned.
    [Whereupon, at 12:41 p.m., the subcommittee was adjourned.)
    [The prepared statements of Hon. Christopher Shays and Hon. 
Vito Fossella and additional information submitted for the 
hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T0872.056

[GRAPHIC] [TIFF OMITTED] T0872.057

[GRAPHIC] [TIFF OMITTED] T0872.058

[GRAPHIC] [TIFF OMITTED] T0872.059

[GRAPHIC] [TIFF OMITTED] T0872.060

[GRAPHIC] [TIFF OMITTED] T0872.061

[GRAPHIC] [TIFF OMITTED] T0872.062

[GRAPHIC] [TIFF OMITTED] T0872.063

[GRAPHIC] [TIFF OMITTED] T0872.064

[GRAPHIC] [TIFF OMITTED] T0872.065

[GRAPHIC] [TIFF OMITTED] T0872.066

[GRAPHIC] [TIFF OMITTED] T0872.067

[GRAPHIC] [TIFF OMITTED] T0872.068

[GRAPHIC] [TIFF OMITTED] T0872.069

[GRAPHIC] [TIFF OMITTED] T0872.070

[GRAPHIC] [TIFF OMITTED] T0872.071

[GRAPHIC] [TIFF OMITTED] T0872.072

[GRAPHIC] [TIFF OMITTED] T0872.073

[GRAPHIC] [TIFF OMITTED] T0872.074

[GRAPHIC] [TIFF OMITTED] T0872.075

[GRAPHIC] [TIFF OMITTED] T0872.076

                                 <all>

</pre></body></html>
